<html>
<title> - TRANSIT SAFETY IN THE WAKE OF SEPTEMBER 11</title>
<body><pre>[Senate Hearing 107-620]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-620


               TRANSIT SAFETY IN THE WAKE OF SEPTEMBER 11

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HOUSING AND TRANSPORTATION

                                 of the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

  THE EXAMINATION OF CERTAIN INITIATIVES TO ENSURE THE SAFETY OF THE 
   UNITED STATES TRANSIT SYSTEM IN THE WAKE OF THE RECENT TERRORIST 
           ATTACKS ON THE WORLD TRADE CENTER AND THE PENTAGON

                               __________

                            OCTOBER 4, 2001

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs

81-324              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  PAUL S. SARBANES, Maryland, Chairman

CHRISTOPHER J. DODD, Connecticut     PHIL GRAMM, Texas
TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         WAYNE ALLARD, Colorado
EVAN BAYH, Indiana                   MICHAEL B. ENZI, Wyoming
ZELL MILLER, Georgia                 CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           RICK SANTORUM, Pennsylvania
DEBBIE STABENOW, Michigan            JIM BUNNING, Kentucky
JON S. CORZINE, New Jersey           MIKE CRAPO, Idaho
DANIEL K. AKAKA, Hawaii              JOHN ENSIGN, Nevada

           Steven B. Harris, Staff Director and Chief Counsel

             Wayne A. Abernathy, Republican Staff Director

               Jonathan Miller, Professional Staff Member

   Joseph R. Kolinski, Chief Clerk and Computer Systems Administrator

                       George E. Whittle, Editor

                                 ______

               Subcommittee on Housing and Transportation

                   JACK REED, Rhode Island, Chairman

                 WAYNE ALLARD, Colorado, Ranking Member

THOMAS R. CARPER, Delaware           RICK SANTORUM, Pennsylvania
DEBBIE STABENOW, Michigan            JOHN ENSIGN, Nevada
JON S. CORZINE, New Jersey           RICHARD C. SHELBY, Alabama
CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
DANIEL K. AKAKA, Hawaii

                      Kara M. Stein, Legal Counsel

                 John Carson, Republican Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                       THURSDAY, OCTOBER 4, 2001

                                                                   Page

Opening statement of Senator Reed................................     1

Opening statements, comments, or prepared statements of:
    Senator Allard...............................................     2
    Senator Sarbanes.............................................    20
    Senator Stabenow.............................................    30
    Senator Corzine..............................................    30

                               WITNESSES

Jennifer L. Dorn, Administrator, Federal Transit Administration
  U.S. Department of Transportation..............................     4
    Prepared statement...........................................    31
    Response to written questions of:
        Senator Sarbanes.........................................    56
        Senator Corzine..........................................    57
William W. Millar, President, American Public Transportation 
  Association....................................................    11
    Prepared statement...........................................    33
    Response to written questions of:
        Senator Reed.............................................    59
        Senator Allard...........................................    60
Robert A. Molofsky, General Counsel, Amalgamated Transit Union...    14
    Prepared statement...........................................    41
Richard A. White, General Manager, Washington Metropolitan Area
  Transit Authority..............................................    16
    Prepared statement...........................................    54

                                 (iii)

 
                      TRANSIT SAFETY IN THE WAKE 
                            OF SEPTEMBER 11

                              ----------                              


                       THURSDAY, OCTOBER 4, 2001

                               U.S. Senate,
  Committee on Banking, Housing, and Urban Affairs,
                Subcommittee on Housing and Transportation,
                                                    Washington, DC.

    The Subcommittee met at 2:35 p.m., in room SD-538 of the 
Dirksen Senate Office Building, Senator Jack Reed (Chairman of 
the Subcommittee) presiding.

             OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call this Subcommittee hearing to 
order.
    Good afternoon. I want to welcome all of you to today's 
hearing on transit safety. The safety of our Nation's transit 
systems has always been a priority. But the events of September 
11 have made it clear that we need to do even more to ensure 
the safety of transit riders and operators.
    I would caution everyone that the intent of today's hearing 
is not to raise new fears in the minds of Americans. It only 
seems prudent, however, to ask our witnesses and my colleagues 
to focus not on the ultimate worst-case scenarios or what a 
specific system's response plans are, because to do so could 
unwittingly aid the very people we are seeking to thwart.
    We also know from yesterday's Greyhound Bus incident that 
our transportation system faces lethal threats from apparent 
nonterrorists as well. And it is important to note that while 
rail systems face a significant threat, our Nation's bus 
systems merit increased 
attention also.
    I believe this hearing should provide an opportunity to 
hear from transit experts on what the threats actually are, 
what they plan to do in response to them, what lessons they 
have learned from the tragedies of September 11, and what the 
Federal Government can do to help ensure that we have the 
safest transit system possible.
    The hallmark of our Nation's transit system has long been 
its safety record, particularly in comparison to other modes of 
travel. Moreover, in the wake of the horrific events of 
September 11, transit systems in New York and Washington played 
an essential role in safely moving thousands of people from the 
affected areas. We owe a great debt of gratitude for those 
efforts to hard-working men and women in these transit 
organizations who helped their fellow Americans in a time of 
grave danger.
    What is also clear from September 11 is that we have a new 
level of threat facing the open society we have cherished since 
our Nation's founding. It is encumbent upon all of us to find 
new ways to reduce this threat. That effort starts first and 
foremost by not retreating from our daily routines and 
practices, whether it is riding the subway or going to a 
football game, because if we allow ourselves to be frozen with 
fear, the terrorists will have achieved one of their goals.
    Rather we should do all that we can to address the threat. 
That task lies first and foremost with our law enforcement and 
intelligence agencies, which have the expertise and the 
authority to stop terrorists before they act. Success by these 
agencies is the best way to preserve the integrity and safety 
of our transportation system. However, at the same time, we 
have a responsibility to make sure that if this front-line 
defense fails, our transit operators are prepared and ready to 
respond. Helping them achieve that goal is what today's hearing 
is all about.
    And I am glad to report that transit agencies from around 
the country, such as the Boston MBTA, which is working on high-
tech biological weapons security systems with MIT, and the 
Federal Government, all of these systems are taking concrete 
and rapid steps to meet this new threat.
    This hearing is the start of a longer process--to develop 
new, enhanced security provisions for the reauthorization of 
TEA-21, which our Subcommittee will begin considering next 
year. As part of that effort, I want to make sure that the 
Federal Transit Authority, FTA, has the resources it needs from 
the recently passed $40 billion supplemental to help systems 
with new capital and operating concerns. The FTA and transit 
are indeed part of the President's new Homeland Defense effort, 
and we will want to maximize coordination between law 
enforcement and transportation officials.
    Today, we will hear from two panels of witnesses. The first 
panel will consist of Ms. Jennifer Dorn, the new Administrator 
of the Federal Transit Administration. For our second panel, we 
will hear from three witnesses who have hands-on experience 
with the events of September 11 at the Pentagon, and they can 
address the steps that transit systems have been taking to 
improve safety.
    We will be asking all of our witnesses to discuss: First, 
the existence and nature of any threats to transit. Second, 
efforts underway to address those threats. Third, lessons 
learned from the experience of September 11. And fourth, 
suggestions for improving transit safety.
    Before we hear from Administrator Dorn, I would like to 
recognize my colleague and friend, the Ranking Member, Senator 
Allard of Colorado.
    Senator Allard.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Senator Reed.
    I would like to thank you, Mr. Chairman, for holding this 
hearing on transit safety in response to the September 11 
terrorist attack in Washington, DC and New York City. It is 
crucial at this time to acknowledge and prepare for the fact 
that our Nation's skies are not the only possible conduits of 
terrorist aggression.
    I would agree with your comments, Mr. Chairman, that we do 
not want to unnecessarily raise any alarm in the country. But 
we need to systematically and thoroughly review what is 
happening as far as trying to be prepared for a possible 
terrorist attack in all of our transportation systems. I think 
it needs to start here in the Committee. So, again, I commend 
you.
    Indeed, some experts believe that, as aviation targets 
become more difficult to exploit, mass transit targets such as 
buses and trains may become a more attractive venue for 
terrorist activities. We are here today to ensure that this 
does not happen.
    While all sectors of society are vulnerable to terrorism, 
some consider public transportation particularly susceptible, 
as rail and bus systems are highly visible and carry large 
numbers of people in concentrated spaces along predictable 
routes and schedules. Also, in their objective to move large 
numbers of people quick and conveniently, transit systems are 
easily accessed by the public and therefore, there is 
difficulty in ensuring their security.
    Since 1998, all rail transit systems, though not bus 
systems, have been required by the Federal Government to 
prepare and implement a system security program plan. Based on 
FTA's guidelines, these plans focus on agency-wide activities 
to provide a secure environment for transit customers and 
employees, including the prevention and mitigation of terrorist 
activity.
    Our witnesses are here today to discuss potential terrorist 
threats to our Nation's transit systems, their efforts, current 
and planned, to address those threats, and how their thinking 
about transit safety may have changed in the wake of last 
month's terrorist attacks. Certainly, the attacks refocus 
everyone on the importance of emergency preparedness. However, 
being prepared for an emergency involves consideration of far 
more than just terrorism. In preparing a good, comprehensive 
plan, an agency will also be well-equipped to deal with natural 
disasters, medical problems, power failures, and the like. 
Although we hope that these events never occur, we must be 
prepared for that possibility.
    I would like to thank all of our witnesses for being here 
today. I look forward to hearing from all of you. Furthermore, 
I would like to recognize all the transit officials and 
employees who quickly and efficiently helped to evacuate large 
numbers of people out of congested areas under the difficult 
circumstances following the attacks on September 11. Our thanks 
go out to all these dedicated transit employees.
    Again, I would like to thank my colleague for holding this 
hearing, and I look forward to working with him on this matter.
    Senator Reed. Thank you very much, Senator Allard.
    I would now like to recognize our first witness, Ms. 
Jennifer Dorn, the FTA's Administrator, who is appearing before 
the Subcommittee for the first time. Jennifer has served with 
distinction in previous Administrations in senior positions at 
the Departments of Transportation and Labor.
    Welcome, Ms. Dorn, and we look forward to your testimony.

                 STATEMENT OF JENNIFER L. DORN

         ADMINISTRATOR, FEDERAL TRANSIT ADMINISTRATION

               U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Dorn. Thank you, Mr. Chairman and Senator Allard. The 
Federal Transit Administration appreciates the opportunity to 
talk with you about these important matters.
    I recently had the opportunity to meet with transit leaders 
in New York City to discuss their public transportation needs 
and emergency operations. Like the fire, police, and emergency 
medical teams, transit employees have shown both heroism and 
incredible resilience as they responded to and helped the city 
recover from the terrorism of September 11. It is really 
astounding to realize that thanks to the emergency response 
plans, clear-thinking, and quick action of transit employees, 
no one--no one--riding the PATH or the New York City subway 
lines that morning was injured. As you know, literally 
thousands of lives were saved.
    I have just returned from the American Public 
Transportation Association annual conference in Philadelphia. 
The fact that the conference was held as planned reflects the 
sense of responsibility of the Nation's transit leaders and it 
gave all of us in the transit community an important 
opportunity to have a number of significant and intense 
discussions about safety and security.
    I certainly share Secretary Mineta's strong commitment that 
the Department has no higher priority than keeping our 
communities safe and moving, and the Department is taking 
responsible and aggressive action to do just that. Within 
minutes of the first plane crash on September 11, the 
Department of Transportation's Crisis Management Center went 
into action and it continues to provide precise, current, 
multimodal information about the Nation's transportation system 
directly to the Secretary and, as he sees fit, to the White 
House.
    In order to respond to the new level of security threats, 
within days, Secretary Mineta also created the National 
Infrastructure 
Security Committee--NISC--within the Department of 
Transportation. The mission of the NISC is to execute 
preemptive, preventative, protective, and recovery efforts for 
critical elements of the U.S. national transportation system. 
FTA is working with NISC, the States, transit agencies, and 
other Federal agencies to identify high-value, high-consequence 
transportation operations and structures, as well as their 
current protection strategies, and any gaps which may exist.
    As we consider a variety of measures to improve security in 
our Nation's transportation systems, it is very important that 
we keep in mind two fundamental points.
    First, that our actions must carefully balance three 
important interests. One--and not in any particular order--the 
need for security. Two, the need for personal mobility. And 
three, the need to maintain economic vitality.
    I believe that the second most important fundamental point 
to keep in mind is that the Nation's public transportation 
system is geographically dispersed within communities, they are 
diverse in their delivery mechanisms, and most of all, designed 
to meet the unique features and needs of the areas they serve. 
Thus, it is very difficult and somewhat unproductive to focus a 
cookie-cutter approach on a problem as significant as this 
without taking into account the unique attributes of particular 
systems.
    With those points in mind, let me briefly describe the 
steps that FTA is taking to enhance the security of the 
Nation's public transportation systems.
    First, we are stepping up our ongoing efforts to help 
transit agencies evaluate the threats and vulnerabilities to 
their systems. This way, they can appropriately refine or 
develop security and emergency response plans, particularly in 
light of the new terrorist reality. Some systems are 100 years 
old. They were designed with 19th Century crimes in mind. 
Others are brand new, designed with security in mind and 
incorporating the latest security technology. No two systems 
are alike.
    Second, we plan at the Department of Transportation to 
provide assistance to transit agencies as they refine their 
emergency response plans in light of their system assessments 
and the heightened terrorist threats. These plans serve as 
blueprints for action in the wake of an attack and articulate 
who will take the specific steps necessary for emergency 
response.
    FTA also will continue to work with local transit agencies 
to conduct full-scale emergency drills to test their plans and 
equipment. In my visits with New York and Washington transit 
officials, they emphasize how important it was that they had 
conducted regular emergency drills--not just fire drills--to 
keep skills sharp, update response plans, and build personal 
relationships with counterparts in the police, fire, emergency 
and health response systems. Although regular drills are 
routinely recommended by security experts in FTA and in transit 
systems throughout the country, there is nothing like hearing 
advice from people who have lived it--literally lived it.
    And finally, we will offer additional security training and 
workshops throughout the country. Nothing is more important 
than training and awareness. We have heard from our colleagues 
in Washington and New York and that means employees and riders.
    We intend to expand our free security and emergency 
response training to incorporate new security strategies and 
tactics and to give more local transit employees the 
opportunity to attend emergency response training. It is 
imperative that we have a transit workforce that understands 
security issues and is fully prepared to respond, should an 
emergency occur.
    In addition to these broader plans, many of which are 
already underway and have been for some time, next week, FTA 
will be mailing to every transit agency nationwide, a security 
toolbox that will include resource guidelines, planning tools, 
training opportunities and sample public awareness 
publications, all at one place, for the ready access of transit 
leaders throughout the country who are paying renewed attention 
to a renewed threat. We believe these materials will be of 
assistance to agencies as they continue to enhance their 
efforts for security awareness and emergency response 
capabilities.
    Thank you, Mr. Chairman, for the opportunity.
    Senator Reed. Thank you very much, Madam Administrator, for 
your very fine testimony. Let me ask a few questions before I 
turn to my colleague.
    As you know, Congress recently passed, and the President 
signed, the emergency supplemental appropriations bill totaling 
$40 billion in response to the September 11 tragedy. 
Transportation security is specifically identified as eligible 
for that money. Has the FTA requested funds for that bill for 
improved safety and, if not, why not?
    Ms. Dorn. Thank you, Mr. Chairman. We are as we speak, 
working directly with the National Infrastructure Security 
Committee, that I mentioned, and certainly, that effort is 
focused on identifying priority needs within transportation. 
There is no question that transportation security will be 
addressed. It is a work in progress. I have every confidence 
that the Administration and the Department will set appropriate 
priorities so that we can enhance the security across the 
Nation.
    Senator Reed. From your review today, and also your 
discussions with local transit leaders, is it your impression 
that they will require additional resources?
    Ms. Dorn. I think it is very dependent on local issues. 
Certainly, as the New Jersey Commissioner of the Department of 
Transportation said to me and to many others at the 
Philadelphia conference, there is no way to plan for what 
happened, the magnitude is so huge. However, it is imperative 
that every agency take a holistic, systematic look at this 
issue. And all transit agencies are sorting out the priority 
needs. There is never enough to be completely secure. As I have 
said in other matters, you cannot wring all of the risk out of 
people moving. But I am confident that, together, we will be 
able to sort through the priorities that will really make a 
difference.
    Senator Reed. One of the lead agencies, or the premier 
agency, for response to a crisis here in the United States is 
FEMA. It has the lead role in most cases and it is also charged 
with developing a comprehensive national emergency management 
system. Does FTA work on a daily regular basis with FEMA?
    Ms. Dorn. Absolutely, through both the Crisis Management 
Center and in our work with the National Infrastructure 
Security Committee, in general, on a day-to-day basis in the 
New York area. They are partners in emergency response and how 
the necessary funds will be delivered.
    Senator Reed. Now as you work through the issues, the 
demands for increased resources, are you also reviewing 
potential changes in the law that would give you and local 
transit agencies more appropriate powers? And if so, can you 
share some of those thoughts with us today? Again, we are 
preparing ultimately next year for the reauthorization of TEA-
21.
    Ms. Dorn. Certainly, Mr. Chairman. The events of September 
11 require that everything be put on the table. With our 
industry counterparts, our partners in the labor community, 
passenger groups, and with the Federal agencies, we are looking 
at everything that will make security more effective.
    We have to be very cautious, as I mentioned in my opening 
remarks, that well-intentioned, aggressive actions do not have 
ramifications that we did not anticipate. This is a complicated 
matter.
    I also think that a cooperative approach where indirect 
pressure and direct pressure from a variety of sources, 
combined with model programs, may well be the solution.
    However, we cannot, and should not prescribe that every 
mode or every type of transportation should have a specific 
mandate for the type of security. The review will show that it 
is more complicated than that and we will need to have as 
dynamic and relatively complex a system as we do. But 
everything is on the table.
    Senator Reed. We give much more specific direction to the 
rail systems than we do to the bus systems, it is my 
understanding. There has been a proposal by the ATU to require 
that bus systems meet the same general guidelines with respect 
to their operations, the security procedures, and also a 
certain percentage of resources devoted to security. Would you 
be in favor of imposing those same types of directions on bus 
systems as well as rail?
    Ms. Dorn. Mr. Chairman, at this point in time, I do not 
believe that it is clear that those additional mandates would 
be of benefit. That is not to say they would not be on the 
table. But I believe that we can thoroughly address the needs 
at this point in time through the voluntary security 
assessments which FTA offers, combined with the model bus 
safety program that is now in its final stages.
    I am eager to work with our partners in Labor to ensure 
that the model bus safety program helps meet the needs that 
they have identified. I believe that it is appropriate to 
utilize that avenue first. I know that there is a strong 
commitment on the part of APTA and the bus industry to really 
take a firm grasp of the importance of this. So, I believe that 
we should try that at this point.
    Senator Reed. In line with my previous questions, FTA's 
Office of Safety and Security develops guidelines, best 
practices, provides training, generally performs safety 
analysis reviews and audits. Do you believe that your Office of 
Safety and Security needs more authority, legislative 
authority, to be more effective?
    Ms. Dorn. At this point, I could not say that we do. I do 
not mean to be repetitive, but in light of the situation, 
everything must be on the table.
    I feel comfortable, particularly with the heightened 
awareness and the responsiveness of industry groups, and the 
best practices that are available, and the technical assistance 
that we provide, we are doing as good a job as we can in the 
existing environment.
    Senator Reed. One final question before I turn it over to 
Senator Allard.
    In 1997, FTA instituted a voluntary security audit program 
for any system at no cost. I wonder how many systems, and if 
you do not have this knowledge, it is certainly appropriate to 
provide it later, have taken advantage of this audit program? 
Have there been an increased number of requests after September 
11? And are there any indications from these audits of what is 
a consistent weakness across the board in these transit 
systems?
    Ms. Dorn. In partial answer to your question, Mr. Chairman 
and I would prefer to be more specific in the record, if I 
might, we have over the last three fiscal years conducted 53 
voluntary audits, and they range from the smaller transit 
agencies to the larger transit agencies. We have completed 
about 18 or 19 each year. I am not aware, although our Security 
Director, Harry Saporta, may know if we have had any requests 
since September 11.
    But I am confident that once we make agencies aware of this 
service, they may take advantage of it. And as you and I 
discussed earlier, agencies, particularly the larger ones, are 
taking their own initiative and hiring security firms to help 
them assess the most important issues that they need to address 
in terms of emergency preparedness, security, and safety.
    Senator Reed. Thank you very much.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    FTA's Office of Safety and Security, the way I understand 
its function, you guide local transit authorities in their 
preparation of the systems security program plans. And in 
addition to that, if there is a request for an audit, then, on 
a volunteer basis, you provide help in that audit. Beyond that, 
what sort of oversight, what sort of function do you carry on 
with the transit agencies to help assure security?
    Ms. Dorn. It actually depends on the mode. But in all 
cases, if we get a call for help, we try to accommodate. And if 
we cannot, we have contractors who have the expertise so they 
can help.
    We have over 200 safety and security courses offered by the 
Transportation Safety Institute. I believe about one-third of 
those have a heavy component in security. We are increasing the 
number of training workshops within our 2002 budget, so that we 
can offer a number of workshops to the smaller agencies on a 
regional basis.
    And in addition to that, of course, our partners in the 
State, if it is a light rail, a heavy rail, or a people mover, 
the State has then the oversight authority for ensuring that a 
safety and security plan is in place for that type of system.
    Senator Allard. Do you interact with those States?
    Ms. Dorn. Yes, we do.
    Senator Allard. And you are working together on these plans 
and whatnot?
    Ms. Dorn. We do. And every 3 years, we do a State review to 
ensure that the State oversight program is up to the level that 
we think is important.
    Now does that mean that we are completely comfortable and 
believe that we are doing everything the way we could? No. Even 
those issues are on the table. How can we qualitatively make a 
difference in those reviews?
    Senator Allard. Now, you mentioned that you handle calls 
for help from local transit agencies. Do you get a lot of 
calls? Or do you get a few calls? Or a moderate number? Could 
you give us some feel as to how often they request help?
    Ms. Dorn. It depends on the size of the agency. And many of 
those calls would go to our regional offices, where they are 
more of the day-to-day partners in technical assistance. There 
is definitely a strong attention across the agencies for 
security and safety.
    Senator Allard. So most of the calls you have gotten have 
to do mainly with maintenance and day-to-day operations. You 
are not getting calls on helping with security issues.
    Ms. Dorn. Not at this point. However, I would mention that, 
just as an anecdotal example, at APTA's conference they had 
some 1,700 folks at a special session for anyone who wanted to 
hear from the New York and Washington folks about lessons 
learned and how they could incorporate and enhance their 
security. There were 400 to 500 people in that audience. For 2 
hours, you could have heard a pin drop and notes were taken. 
There is a heightened awareness about the security piece.
    Does that mean we have done enough? No. We have to work 
together. We have a new normalcy, as Secretary Mineta would 
say.
    Senator Allard. Now, please describe for us the functions 
of and coordination between the Department of Transportation's 
Office of Intelligence and Security and FTA's Office of Safety 
and Security, as they relate to helping the transit agencies 
prepare for and perhaps respond to terrorist threats or 
attacks, if that should happen.
    Ms. Dorn. Right. Well, there are two ways that we work on a 
regular basis with OIS, as you have mentioned. One had been in 
place prior to September 11, and that is through the Crisis 
Command Center. Every mode is represented, and for the period 
of time since September 11, it was on a 24/7 basis. Every mode 
is at the table, connected with the Nation's transportation 
systems. And OIS is there as well. So they are talking 
constantly.
    In addition to that, OIS is on the executive committee of 
the Secretary's group that I mentioned, the National 
Infrastructure Security Committee, as is FTA. And so, that is 
focused on the kinds of problems out there, the gaps, and how 
we can fill them in the high priority areas.
    Senator Allard. I have never heard of an agency or somebody 
representing an agency come here and say that they do not have 
enough resources. And perhaps the following question is a 
foolish question, but I am going to ask it anyhow. Does FTA's 
Office of Safety and Security have the staff and resources it 
needs to effectively help State and local transit agencies 
prepare and respond to possible terrorist attacks?
    Ms. Dorn. I am confident, Senator Allard, that as we work 
through this issue with the Office of Management and Budget and 
the Secretary, we will have the necessary resources to do the 
job that is required.
    Senator Allard. I appreciate that response. As you know, 
the President recently announced the formation of the Office of 
Homeland Security. Do you have any idea what FTA's role might 
be as it relates to this new office, and what role the office 
will have in transportation? I have not gotten any of those 
details. I do not know whether the Chairman has or not. But we 
would like to hear what your perception is as you interact with 
the Office of Homeland Security.
    Ms. Dorn. It is my understanding that the White House is 
moving aggressively to outline the specific authorities and the 
office structure. There is no question that the mission is 
clear, as I have heard and understood it from Secretary Mineta, 
and that is to coordinate the Executive Branch's efforts to 
detect, prepare for, respond, and recover from acts of global 
terrorism.
    Senator Allard. But you do not have the details yet.
    Ms. Dorn. No, I do not.
    Senator Allard. Okay.
    Ms. Dorn. But I have every confidence that FTA, through the 
Department of Transportation, will have a seat at that table. 
It will not work if it is not that way, and I am confident that 
Governor Ridge and the President would thoroughly understand 
that. That is the purpose of creating it. I am pleased that it 
has been created.
    Senator Allard. We have some privately owned transportation 
systems out there. What role does the Federal Government have 
in antiterrorism measures with these transportation systems?
    Ms. Dorn. As I understand it, it is the bully pulpit, 
primarily, because the hook is usually Federal grant money.
    Senator Allard. Okay.
    Ms. Dorn. So that is the primary authority. Plus the good 
citizen motivation.
    Senator Allard. Do you reach out to them or do you kind of 
ask them to reach out to you on a regular basis?
    Ms. Dorn. Well, since I have had this position, I have 
reached out proactively. That piece of the industry will be, 
and should be, a growing part of the Nation's public 
transportation system. We need them. We need their counsel. We 
need their advice. We need their good business practices.
    Senator Allard. Mr. Chairman, I see my time is expired and 
I know you are anxious to get to the next panel.
    Thank you.
    Senator Reed. Thank you very much, Senator Allard, for your 
excellent questions.
    Madam Administrator, thank you for your testimony. You are 
very articulate.
    Ms. Dorn. Thank you very much.
    Senator Reed. Very well thought-through. We are eager to 
know of the results of your deliberations, particularly if it 
would result in requesting supplemental funds. We would like to 
be an aid to you in getting the resources that you and local 
transit authorities need, to make sure they are secure and 
protective of the public.
    Ms. Dorn. We at the Department of Transportation are eager 
to work with this Committee in that regard. And I am confident 
I will be calling you.
    Senator Reed. Thank you very much.
    Now let me call the second panel to the table.
    [Pause.]
    I would like to introduce the witnesses on our second 
panel. First, Mr. William Millar has been President of the 
American Public Transportation Association since November 1996, 
after 24 years in transit operations at the Port Authority of 
Allegheny County, Pittsburgh, and elsewhere. Bill has long been 
a national leader in transit policy. We thank you for joining 
us today.
    Mr. Millar. Thank you, Mr. Chairman.
    Senator Reed. Mr. Robert A. Molofsky is the General Counsel 
of the Amalgamated Transit Union, which represents 175,000 
employees in public mass transit, intercity bus, school bus, 
para-transit, and van service operations in some 46 States and 
throughout the provinces of Canada. Bob has been involved in 
the ATU's legal, regulatory, and governmental affairs since 
1981.
    Thank you, Bob, for joining us.
    And finally, Mr. Richard A. White is the General Manager of 
the Washington Metropolitan Area Transit Authority, the 
regional operator of rapid transit and bus services in the 
Greater Washington National Capital Metropolitan Area, and the 
fourth largest mass transit system in the United States. Mr. 
White has 25 years of transit experience, including several 
high-level positions with San Francisco's Bay Area Rapid 
Transit district, among others. Mr. White is joined by Chief 
Barry McDevitt of the WMATA's police force. And we have a 
mutual friend, Chief. That is Beverly Scott, who is the head of 
RIPTA in Rhode Island, and she is very proud of what you and 
all of your colleagues were able to accomplish, and with your 
fellow colleagues in New York City.
    I thank you all for joining us.
    Before we begin, I would just point out that your written 
testimony will be made part of the record. There is no need to 
read it, but we will allow you 7 minutes.
    Mr. Millar, please begin.

           STATEMENT OF WILLIAM W. MILLAR, PRESIDENT

           AMERICAN PUBLIC TRANSPORTATION ASSOCIATION

    Mr. Millar. Thank you, Mr. Chairman. Good afternoon. I want 
to thank you for this opportunity to testify and appear before 
you. And I want to say thank you to Senator Allard and to all 
the other Members of Congress--how quickly you have responded 
to the needs of the Nation after the horrific events of 
September 11. We do believe that there is additional 
information we could provide to you and to the Committee, 
particularly if there is an opportunity, perhaps, for executive 
session or private sessions on this.
    Mr. Chairman, we believe that the Federal investment that 
has been made in the past several years in public 
transportation has been paying off in lots of different ways. 
And one of those ways is improved safety and security, which I 
will discuss in a moment.
    That investment has allowed public transportation usage to 
grow dramatically in this country, up some 21 percent over the 
last several years, and it has enabled our members to upgrade 
their systems, improve the safety and security of their systems 
in a variety of ways, from upgrading rolling stock to buying 
security equipment to building new systems with the latest 
design characteristics that are necessary for the best of 
safety to be included.
    And we think this investment paid enormous dividends on 
September 11, when public transportation operators in both the 
New York City area and the Washington, DC area helped safely 
evacuate citizens from the center city. Indeed, while the 
attention is focused on those cities, all across America, 
evacuations were underway that day. Transit systems were part 
of the emergency response, as they served to carry stranded 
travelers from the Nation's airports and as they moved 
emergency workers around, and the story goes on and on.
    We believe that the response of the transit industry to the 
September 11 events shows quite clearly that, just as our 
interstate highway system when it was begun by President 
Eisenhower, was a national defense interstate highway system, 
we think in this new war on terrorism, public transit agencies 
are certainly part of the national defense component of this. 
We are extremely proud of the way our members throughout the 
country, and particularly in the New York and Washington area, 
responded.
    Mr. Chairman, as Administrator Dorn said, through perhaps 
fortuitous scheduling, the last few days, much of our industry, 
much of the leadership of our industry has been in Philadelphia 
for a long ago scheduled annual meeting of our assocation.
    Over 2,300 transit leaders from around the country were 
present and, needless to say, the agenda we had on September 10 
was altered dramatically for the meeting that began on 
September 29.
    We were most pleased that Secretary Norman Mineta was able 
to come to Philadelphia just 4 days ago to be our keynote 
speaker. He emphasized the importance of public transportation 
to our Nation and the critical importance of continuing to 
focus on safety and security needs.
    While he said many memorable things in that speech, there 
were some words that stuck out particularly for me. He said: 
``Preparation equals performance.''
    And I want to assure you that we in the public transit 
industry are taking that message to heart. For nearly 20 years, 
through the American Public Transportation Association's System 
Safety Program, and our related Safety Management Audit 
Programs, APTA has been working with and encouraging its 
members to plan and prepare for safety and security.
    A good, safe, and secure system does not, as they say, 
happen by accident, and the Secretary's words--preparation 
equals performance--were borne out on September 11.
    I can report to you that nearly all of the Nation's 18 
commuter rail systems participate in our audit program, that 
all of the Nation's rail transit systems in the country 
participate either in our program, or in a program of their own 
State, and those State programs follow guidelines that are 
based on our system safety plans.
    In the last year and a half, we have developed a similar 
program for the Nation's bus systems, which is being 
implemented now. And we are seeing, as you would well imagine, 
quite a large increase in inquiries about joining that program 
since September 11.
    APTA handles that program through a staff of in-house 
auditors who are well trained, and it is advised by committees 
inside our association. We include members of FTA's security 
office, as well as DOT's Office of Intelligence and Security, 
in our meetings and as part of our committee.
    We share and trade information and we make sure that we are 
each aware of what the other is doing. We make sure that our 
programs can be coordinated as much as they can be, so that 
they can be effective.
    Our safety and security plan program certainly proved its 
worth on September 11. Both the operators in New York and 
Washington have been long-standing members of those programs. 
They had plans. They practiced their plans. And they responded 
well when they were called upon.
    As a trade association representing both public-sector 
operators, which has been the focus of much of my testimony so 
far, but also the private-sector industry that supports our 
public operators, we work on a whole variety of activities, and 
let me outline some of those for you very briefly. I would be, 
obviously, happy to go into more detail during questions and 
answers.
    First, as soon as the terrible events became clear on 
September 11, we immediately offered our help to the FTA and to 
the Federal Railroad Administration. Within a few days, we were 
able to supply them with a list of capital needs, operating 
needs, and research and development needs that would be 
critical to improving the safety and security of our systems. 
We have, as part of our testimony, supplied that list to the 
Committee for your consideration.
    We think that considerable investment will need to be made, 
and not anticipating your questions, but having heard the 
questions to Administrator Dorn, we do believe that additional 
investment is going to be made, and we are working with our 
members now to see if we can get a handle on the order of 
magnitude that might be appropriate there.
    At our recently concluded annual meeting, we did have a 
very special forum that the Administrator spoke of on Tuesday 
afternoon, where the leaders from New York and Washington told 
us of their experience and how they responded.
    Four key themes emerged--you need to plan, you need to 
prepare, you need to practice, and you need to partner. It was 
clear in all those cases that those systems did that, it paid 
off, and I am sure my colleague, Mr. White, say more about that 
later.
    We as a trade association are sharing critical information 
of best practices among our members. The reality of it is, this 
has been an issue higher on some members priority list than it 
has been for others. But now, it is number one on everybody's 
list and we want to make sure that we learn from our 
experience.
    Later this month, we are sponsoring with the Mineta 
Institute from San Jose State University in California, and the 
American Association of State Highway and Transportation 
Officials and DOT's Research and Special Projects 
Administration, a special invitation-only conference here in 
Washington, DC, where we will bring the leaders of the surface 
transportation industry together to talk through these issues 
and hear the results of research that was completed last summer 
on terrorism in transportation and how to respond to it. We are 
also having discussions with the International Union of Public 
Transport based in Brussels. Regrettably, much of the rest of 
the world has had far worse experience up until September 11 
than us, and we do believe that we have much to learn from 
other countries and other cities here.
    And finally, we continue to work with DOT in making sure 
that safety and security remain paramount issues. We are very 
pleased with the Administrator's quick actions to develop a 
rapid response toolbox, including an offer to our association 
to have material placed in there.
    We are very pleased with her response to assist in making 
audits available. And there are many other examples where we 
are working together. I will look forward to your questions and 
expanding on these points.
    Thank you, Mr. Chairman
    Senator Reed. Thank you, Mr. Millar.
    We will hear from Robert Molofsky, General Counsel of the 
Amalgamated Transit Union.

                STATEMENT OF ROBERT F. MOLOFSKY

           GENERAL COUNSEL, AMALGAMATED TRANSIT UNION

    Mr. Molofsky. Thank you, Mr. Chairman. I am appearing on 
behalf of our International President James La Sala to discuss 
the ATU's views and concerns about the safety issues facing the 
transit industry, as well as to offer recommendations for 
making transit systems safer and addressing the heightened 
concerns in the wake of the September 11 terrorist attacks.
    This is certainly a difficult time for those in the 
transportation industry, and indeed, for all Americans. It has 
now been 23 days since this Nation witnessed the horror of the 
events on September 11. Since then, President Bush, his 
Administration and Congress have shown remarkable 
bipartisanship in their efforts to implement new counter-
terrorism measures. The airlines, along with the assistance of 
the Federal Government, have adopted stringent new security 
measures to better protect America's air travelers. And transit 
systems throughout the country, with the full support and 
assistance of the ATU, have begun to reexamine existing 
security procedures and emergency preparedness plans in the 
hopes of preventing further tragedies.
    Today, too, we meet just one day after a most tragic 
incident on Greyhound. We are indeed grateful that our driver 
survived. And I take this moment to again offer and extend, on 
behalf of the ATU, our prayers and thoughts to those 
passengers, their families, and friends who were hurt or killed 
in that accident. And yet, that incident underscores the kind 
of preparations, plans, and programs that we are here today to 
talk about in the transit industry.
    We are grateful at the same time for the swift actions 
undertaken by Secretary Mineta, Deputy Under Secretary 
Underwood, the FBI, and State officials immediately 
investigating that accident and communicating the outcome of 
that investigation immediately, not only to Greyhound, but also 
to the unions and others in the media and the public concerned 
about what that event may or may not have been. We think that 
important and rapid investigation and communication response 
helped defuse what might have been a more difficult situation 
and allowed the company, with our support, to reopen its 
operations several hours after the shutdown.
    Yet, despite all of the extraordinary measures taken in 
transit and in the airlines, we know that no one is immune from 
future attacks. This is not new to the ATU or the transit 
industry who for years have faced startling statistics and 
real-life events as I just described that have put this 
industry on guard for the very real potential of terrorists or 
quasi-terrorist attacks.
    According to the DOT's Office of Intelligence and Security, 
attacks against transportation and transportation 
infrastructures accounted for 42 percent of all international 
terrorist attacks. And 34 percent of violent attacks against 
transportation target rail and bus systems. Mass transportation 
systems in the United States have figured prominently in many 
of these acts of terrorism and extreme violence, and our 
testimony summarizes those major incidents.
    Our testimony, too, highlights the less severe forms of 
violence against operators of bus transportation vehicles who 
have also been, as happened yesterday, the victims of assaults 
and attacks while in their vehicles. While the severity of 
those incidents may pale in comparison to the recent tragedies 
in New York and Washington, these assaults are nonetheless a 
serious safety threat to transit personnel, passengers, and to 
the rest of the traveling public who share the roads with our 
mass transportation vehicles.
    The ATU has been committed for years to addressing the 
threat of these attacks. Among our many efforts in this 
campaign, we have worked and have urged the FTA and Members of 
Congress to require security measures and mass transit safety 
programs, to increase penalties for persons who assault transit 
operators, and to provide funding for the National Transit 
Institute, enabling it to provide important safety research and 
training programs to transit workers. Over the last two 
sessions of Congress, we have also supported and urged passage 
of the Preparedness Against Terrorism Act, currently H.R. 525. 
This bill, now pending, seeks to improve coordination of 
Federal efforts with regard to preparedness against terrorist 
attacks in the United States.
    The bill would require an assessment of the risk of such 
attacks against transportation, energy, and other 
infrastructure facilities, as well as an evaluation of 
available technologies and practices to determine the best 
means of protecting such facilities from attacks.
    We take note of the testimony earlier of Administrator Dorn 
in referencing Secretary Mineta's new committee that is now 
undergoing a current review and study that parallels some of 
the issues raised by that bill and hope that the transportation 
labor community will be asked to participate in that ongoing 
effort.
    We want to take the opportunity to ask this Committee to 
consider the bill now pending in the House and support it or 
seek to have it included in any comprehensive transit security 
legislation that may come out of these hearings in the future.
    While I have painted a rather grim picture of the security 
threats facing the industry, I would be remiss if I did not 
point out that the transit industry is one of the safest forms 
of transportation. Even in the face of the tragic events of 
September 11, public transportation systems in New York and 
Washington responded quickly, reliably, and efficiently in 
evacuating people away from areas affected and delivering them 
safely to their destinations.
    Today, as I sit side by side with Mr. White of WMATA, it is 
clear that the comprehensive planning, preparation, and 
practices, as Mr. Millar mentioned, involving not only the 
security personnel, but also the transit workers, on that 
system, as in New York, were the key to the ability of those 
two systems to respond as they did to those unexpected events. 
They made heroes of our members and they made good examples of 
what this country should look forward to having happen and take 
place in every system throughout the United States.
    With that said, there are several specific legislative and 
regulatory fixes that must be taken to better ensure the safety 
of our transit systems. This is not a time just for best 
practices or model safety plans. We make the following six 
recommendations for improving transit safety and security which 
are amplified in detail in our testimony.
    First and foremost, the safety and security requirements 
which apply to fixed-rail guideway systems should be extended 
to cover bus transit systems. There is currently no Federal 
requirement that bus systems prepare or implement security 
plans to protect and prepare bus operators and passengers in 
emergency situations. This makes no sense.
    Second, Federal law should be amended to require all 
transit systems in urban areas to spend a minimum percentage of 
their formula grant monies on security measures without 
exception. While Federal law currently requires that at least 1 
percent of such grants be spent on security, it allows an 
exception where the grant recipient has decided that the 
expenditures for security projects are not necessary. At a 
minimum, that decision should be left up to the Secretary of 
Transportation.
    Third, Congress must appropriate sufficient funds to allow 
transit agencies to adopt and implement needed security 
improvements. Funding is necessary and needed not only for 
equipment and planning, but also for training of the workers 
who are on the front lines of our Nation's systems to ensure 
that they are properly aware and informed as to the steps to be 
taken in sudden emergencies.
    Fourth, the FTA should develop a national transit terrorism 
threat warning system similar to the system developed by the 
FAA to warn all operating systems that an attack may be 
imminent.
    Fifth, Congress should Federalize penalties for violent 
assaults on transit operators. Despite the important public 
service they provide and the accompanying risks they face on 
the job every day, transit operators receive very little 
protection under Federal and State laws, unlike airline pilots 
or flight attendants.
    Sixth, the FTA must further improve its transit crime 
reporting system so that the true extent of the threat can be 
assessed.
    We believe that by considering these and other measures, 
including the program outlined by Administrator Dorn and by my 
copanelists, that if the proper funding is provided to ensure 
that all of the systems--the bus and rail systems--can develop 
and implement the kinds of plans that we know will work, that 
our systems will remain safe and become safer and that the 
personnel that are on the front lines and operating those 
systems will be well prepared to respond to sudden attacks.
    Thank you, and I will be happy to later answer questions.
    Senator Reed. Thank you very much, Mr. Molofsky.
    We have been joined by the Chairman of the full Committee, 
Senator Sarbanes, and at the conclusion of Mr. White's 
testimony, I will ask him for his comments.
    Mr. White, again, thank you and your colleagues for 
wonderful service to this community and the Nation on September 
11. And please proceed.

         STATEMENT OF RICHARD A. WHITE, GENERAL MANAGER

         WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY

    Mr. White. Thank you.
    Good afternoon, Chairman Reed, Senator Allard, and 
Committee Chairman Sarbanes. Thank you for asking me to testify 
on the important subject of transit safety in the wake of 
September 11.
    The events of September 11 have affected all aspects of 
national life. Daily and routine events like business trips, 
vacation travel, and commuting have been changed forever. 
Although WMATA handled its mission well on that tragic day, we 
now face altered expectations, especially from our Federal 
customer base. Safety and security are of concern for each of 
the 1.1 million daily trips on the system, and it is our 
obligation to continue to ensure that Metrorail and Metrobus 
operations provide our customers safe passage, so the important 
work of the National Capital Region can continue.
    Before responding to your questions regarding safety, I 
would like to also acknowledge the extraordinary efforts of our 
New York and New Jersey colleagues. They were heroes in their 
communities. As did Administrator Dorn earlier this week, I 
also attended the annual meeting of the American Public 
Transportation Association and heard firsthand some of the 
courageous and brave acts performed by transit employees, acts 
which literally saved thousands of lives that otherwise would 
have been lost in the subway tunnels that ran underneath the 
World Trade Center complex.
    In those and other systems across the Nation, America's 
transit system customers were safeguarded on that sad day. And 
Mr. Chairman, and Members of the Committee, I believe that 
WMATA and transit systems across the country will play an even 
greater role in our national defense and national security in 
the months and years ahead.
    On September 11, when WMATA was needed most, and in the 
midst of regional chaos, Metrorail and Metrobus were ready, and 
delivered for the National Capital Region. We operated the 
equivalent of back-to-back rush hours, virtually without 
incident, after the Federal Government and other regional 
employers sent hundreds of thousands of workers home around 
mid-morning. We were operating the entire day. We did what we 
do best--we moved large numbers of people safely and 
efficiently.
    Throughout the day, the WMATA workforce performed 
extraordinarily, and, I might add the vast majority of our 
represented employees are represented by the Amalgamated 
Transit Union. Not once did an employee put their own 
individual concerns ahead of their sense of duty to the 
customers. The transit police, the bus and rail operators, the 
station personnel, the customer service representatives--
everyone--demonstrated their dedication to our mission of 
moving people safely and securely.
    Further, we never lost communications throughout the day. 
We established our internal operations command center and 
maintained contact with local, State, and Federal authorities. 
We communicated with our riders through in-system messages, our 
phone system, and over the Internet through the website.
    WMATA, blessedly, suffered no property damage, no loss of 
life, and no injury to any of our employees, or to any of our 
customers on that terrible day. I would be happy to give you 
additional details on the actions of that day, but I would now 
like to address the important safety questions raised in your 
invitation letter.
    The most significant issue facing WMATA is adapting to the 
post-September 11 reality that our freedom of mobility has been 
challenged. Security is paramount in the minds of our riders. 
WMATA is considered one of the safest transit systems in the 
country, but we are always reviewing ways to meet the 
obligation of providing greater security for the riders of the 
region's public transportation.
    Currently, we have been doing the following, and, have been 
doing the following for quite some time.
    We do conduct annual counter-terrorism training for our 
police. We conduct suspicious package and explosive device 
training, not only for our police, but for our operations 
personnel as well. We provide bomb containment trash cans. We 
participate in numerous interagency related training drills. We 
have 1,400 cameras monitoring the rail system. We participate 
in the testing of emergency technology. And we have assigned 
protective equipment to our police and rail operations 
personnel.
    We are partnering with the scientific community and the 
Federal Government through the Departments of Transportation, 
Energy, and Justice, under the guidance of several national 
laboratories in an ongoing program for chemical and biological 
protection. For security reasons I cannot discuss the details 
of this program, but chemical sensors have been installed in a 
portion of our rail system and are being tested in the system 
as a part of an effort to protect our customers, first-line 
emergency responders, and employees. The intent is to share the 
results of the program with the transit industry in this 
country and around the world.
    In addition, WMATA has identified a number of enhancements 
to current security. Since you have asked the question about 
investment, we have a preliminary list of approximately $20 
million for a series of security enhancements, including 
allowing us to provide the recording of security-related 
incidents. The 1,400 cameras that I mentioned do not have 
recording capabilities. We believe that we can enhance our 
security efforts by providing recorders to those cameras. Also, 
to provide intrusion monitoring capability, adding that same 
kind of technology at our rail yards and bus 
garages will help limit access in secure facilities to 
authorized personnel only.
    We are currently completing a comprehensive review of 
procedures, facilities, and other security enhancements. We 
believe that other security options could be desirable, such as 
security cameras on our buses, a global positioning vehicle 
location system for our buses, and additional sensors 
throughout the system. The review is an effort to identify all 
other potential security needs and their associated costs. Of 
course, this would be in addition to the $20 million that I 
previously mentioned.
    Completing this review and implementing additional security 
enhancements should go a long way toward reassuring our riders 
that public transit continues to be safe in the post-September 
11 world.
    Since September 11, we have done other things, such as 
providing a higher level of presence of the Metro police. We 
put them in bright orange-colored vests, together with our 
operations personnel, so that they are more visible to our 
customers. We are 
engaged in continued dialogue with our customers related to the 
security, asking them to be additional eyes and ears for us. We 
are doing additional risk assessments, and we have inplemented 
some new security measures in our headquarters.
    What we learned on that day was that it is critical that 
there are reliable and redundant communication systems in place 
and that there is an open exchange of information with other 
local and Federal agencies. There does need to be a regional 
evacuation plan developed for this metropolitan area in 
cooperation with local, State and Federal agencies. Such a plan 
is now in development on an expedited basis.
    Further, there needs to be regular and ongoing 
communication with our riders. We found the value of our 
website where we had double the number of web hits and user 
sessions on that day and also handled double the number of 
calls into our call center.
    More broadly speaking, to improve safety, I believe that 
all transit properties should do the following:
    Make sure that you do have good emergency plans. Make sure 
that you have a high level of employee training and awareness. 
There is no substitute for drill, drill, drill. Make sure that 
you have a high level of interagency coordination with 
appropriate police, fire and emergency rescue personnel. Know 
your partners, but, more importantly, have roles and 
responsibilities well defined and understood before an incident 
takes place. Make sure the communications systems, both 
internal and external, are adequate and in good working order.
    To improve transit safety, echoing what we have already 
heard from Administrator Dorn and others, the Federal 
Government should consider the following:
    Have FTA conduct a security readiness assessment of all 
transit systems, or certainly the largest transit systems. Have 
FTA provide technical assistance to systems in preparing good 
safety and security plans and in conducting training and 
drills. Have FTA be the facilitator of information through the 
exchange of national and international best practices through 
linkage with the Department of Transportation's Office of 
Intelligence and Security and the new Office of Homeland 
Security. Exploring and making best use of technology. Ensuring 
that the various Federal agencies with regulatory 
responsibility do coordinate their activities with the transit 
industry. Coordinating intelligence-sharing through partnering 
efforts with the FBI and other key Federal agencies. I would 
put an underscore on that particular item. Supporting necessary 
long- and short-term investments in order to provide enhanced 
security and expanded system capacity.
    There was much talk of transit's ability to shape the 
nature of the first major transportation bill of the 21st 
Century, at the APTA annual conference this week.
    In closing, I would like to propose that now is the time 
for the Nation to consider certain transit properties as a part 
of the national defense system, and to contemplate their value 
and needs as the evacuation method of choice, and possible 
necessity, during specific emergency situations. Every mode of 
transportation is important during emergencies, but transit has 
experienced the highest growth rate of any of the 
transportation modes over the last 5 years. It is able to move 
people more quickly and efficiently than congested roads and 
highways can. The Nation needs to view our transit systems in a 
national defense context in order to properly recognize the new 
reality.
    Thank you for holding a hearing on this important subject. 
I look forward to answering your questions.
    Senator Reed. Thank you very much, Mr. White.
    Now, I want to call upon full Committee Chairman Sarbanes 
for his comments.

             STATEMENT OF SENATOR PAUL S. SARBANES

    Senator Sarbanes. Well, thank you very much, Mr. Chairman. 
I apologize for not being here earlier and, unfortunately, I am 
going to have to leave because of the press of other business. 
But I first of all want to underscore my appreciation to you 
for calling what I think is a very important and timely 
hearing.
    Our Nation, of course, has experienced a daunting national 
tragedy. It is very difficult to find words to convey the 
devastation that occurred on September 11. It is now 3 weeks 
after that day and I am gratified to see that, while we 
continue to mourn those who are lost, we are proceeding ahead 
with the business of the country. This hearing reflects that.
    We obviously need to focus since more and more Americans 
are relying on public transportation for their daily mobility 
needs. It is my understanding that the ridership is up now to a 
peak year since, when, 1946 or something?
    Mr. Millar. In the last 40 years, it is the highest 
ridership at the current time since about 1960, 1961.
    Senator Sarbanes. That is right. So it is very clear that 
transit must be a vital component of any city for transit plans 
to begin with, and certainly, any emergency plans.
    Today's hearing will focus on the security of the systems 
themselves, but we need to keep in mind the crucial role that a 
reliable public transportation network can play in responding 
to the demands of the traveling public.
    Now, obviously, public transportation faces unique 
challenges in the safety and security area. Almost by 
definition, transit must be accessible to all who wish to use 
it. It runs on identified routes and at published times, it has 
to use an extensive network of roads and rails, spanning a wide 
geographic area. So, we have to do some very careful thinking 
about how we address the safety and security problems.
    The United States has actually been largely spared from 
transit- related terrorism, some of which rail and bus attacks 
have occurred in other countries. I know that Mr. Molofsky, in 
his testimony, had a list of incidents. But compared to what 
has been experienced in European countries, it is a fairly 
short list, and some of it seems directly attributable to 
individuals of a deranged nature of one sort and another. Not 
that that makes it much better, but at least it is not 
perceived as part of some coordinated scheme.
    Transit systems have taken steps to mitigate the risks, 
minimize the damages. Their efforts of course cover a wide 
range of things--improved technology, increased coordination 
among agencies, heightened awareness and training for transit 
personnel.
    Mr. Chairman, I was very struck by this panel in terms of 
how specific and focused the recommendations of each of the 
three people at the table were in terms of what could be done. 
By happenstance, of course, the American Public Transportation 
Association just held their annual conference in Philadelphia 
and was able to focus in particular on this issue. But each of 
our witnesses at the table has really laid out a very detailed 
agenda of what can be done and what needs to be done. And your 
holding this hearing will help to underscore that. It helps us 
also to provide an agenda to the Federal Transit Administration 
and to the Department of Transportation on how we may move 
forward.
    There is tremendous expertise not only at the table, but 
also reflected by their colleagues across the country. And 
obviously, they are in a position to speak in a very 
knowledgeable way about things that can be done. So, I am 
hopeful, with your prodding and that of others here in the 
Congress, we can take some of these recommendations and move 
them very quickly into an action agenda.
    Now, we will not be dealing with the reauthorization of 
transit. I mean, we are still in the authorization cycle, so 
that remains ahead of us. But there are obviously matters we 
can do in the short run. In the long run, we need to do a lot. 
We were already beginning to focus on that. I know of the 
Chairman and the Ranking Member's strong commitment to transit. 
And I very much look forward to helping carry through with 
that. But Senator Reed and Senator Allard, I think this is a 
very, very timely hearing and I appreciate your initiative in 
holding this hearing.
    Thank you very much.
    Senator Reed. Thank you very much, Chairman Sarbanes.
    Let me address a question to Mr. Millar. There is a 
differential between the way the Federal Government treats rail 
systems and bus systems in terms of the security policy and 
safety policy. Do you think there should be the same rules 
applied to bus systems, as well as rail systems?
    Mr. Millar. Bus systems and rail systems are different. The 
technology is different, the operating environments are 
different. So, I do not believe that a single approach makes 
sense.
    Where we are is that, historically, rail systems carried 
much larger numbers of people, and often had enclosed, fixed 
facilities and were viewed as more likely targets.
    What we have learned in the last 3 weeks as we focused on 
the overall issues, and certainly, as my colleague, Mr. 
Molofsky, has pointed out, we certainly need to do a better job 
across the board, not just where the risk is the greatest.
    Senator Reed. I just want to be clear. Because they are 
different in many ways, you cannot apply the same rules.
    Mr. Millar. Right.
    Senator Reed. But there are guidelines that the Federal 
Government promulgates, as I understand, for rail systems and 
they do not do that for buses. Would it be appropriate to have 
certain guidelines for bus systems that the Federal Government 
promulgates?
    Mr. Millar. I was with you until ``Federal Government 
promulgates.''
    Senator Reed. Okay.
    Mr. Millar. We as an industry have put together guidelines 
for our bus operators, regardless of size.
    Senator Reed. Right.
    Mr. Millar. We are believers in voluntary compliance with 
those guidelines and working with our members to do it. 
Administrator Dorn said it best, though--no matter what our 
positions have been, everything has to be on the table. And we 
would anticipate working with the Congress and the 
Administration on appropriate guidelines in that area.
    Senator Reed. The issue, and you suggested in your 
response, is what is voluntary and what is mandatory?
    Mr. Millar. Yes.
    Senator Reed. And I hope that issue is on the table.
    Mr. Millar. Yes, sir.
    Senator Reed. In that regard, before I turn to Mr. White 
and ask him to comment on this line of questioning, ask you to 
what extent do those bus systems meet what you would say is 
good practice out there? Is it 80 percent of them? 20 percent 
of them?
    Mr. Millar. The largest bus systems in the country, the 
ones that probably carry 75 or 80 percent of the bus passengers 
in the Nation, are all members of our bus safety program and 
all practice the same kind of activities that served us so well 
by the rail systems on September 11. For the smaller systems, 
by and large, it is a new issue to them. But if I can judge 
what I heard from my members in the last few days, a very 
important issue for them.
    Senator Reed. The other issue, just to put it on the table, 
is not just the guidelines. It is also requiring funds to be 
spent on safety and security measures. Mr. Molofsky was quite 
specific to these issues. So let me turn to Mr. White. Would 
you comment on these issues?
    Mr. White. Yes, Mr. Chairman. We are an operator of both a 
heavy rail system and a large bus system. I would agree with 
the characterization of Mr. Millar as to, first, the 
differences between a rail system and a bus system and, second, 
the differences between a large bus system and a small bus 
system.
    We already voluntarily comply. We already have system 
safety program plans for bus as well as rail and security plans 
for a bus, as well as rail. We have already taken that step. We 
have also signed up for the APTA bus review program, which is a 
very new program. We are one of the first properties to sign 
up. As a matter of fact, APTA is going to be conducting that 
audit within the next week or two.
    We believe in being very proactive. We make sure that our 
bus system has the appropriate protections built into it. I 
agree that we need to move forward on a voluntary basis and 
maybe begin to differentiate a little bit between the larger 
systems and the smaller systems.
    Senator Reed. Thank you.
    Mr. Molofsky, do you have a comment? I do not want to 
presume to know your answer, although it was pretty obvious.
    Mr. Molofsky. I appreciate you asking those questions.
    It is unclear to us what exactly the field is in terms of 
those systems that are complying and exactly what they are 
complying with, even voluntarily.
    Certainly, there are a number of the large systems that are 
probably exemplary. We do not think it is uniform even for 
those who have some plans in place.
    Also, we would note that, as we set forth in our testimony 
and in correspondence to the FTA, the model bus plan, the model 
transit bus safety program that has been developed and 
circulated without our input, is pretty light on security 
issues and was prepared without any input from the 
transportation labor force. So, I just want to underscore that.
    We are prepared to work with our industry counterparts in 
the FTA to ensure that there are acceptable guidelines that 
meet the new security issues that we all face. But without a 
mandate, and the funds to go along with it, given the public 
interest and the public policy to maximize safety and security 
among all of our Nation's systems, we would fall short of what 
we owe the public and the ridership that we serve.
    Senator Reed. Mr. Millar.
    Mr. Millar. May I comment further on that, Mr. Chairman?
    Senator Reed. Yes, absolutely, sir.
    Mr. Millar. Certainly, the Committee is going to want to 
look into the issue of what should the Federal Government pay 
for. Some things will be very obvious. I am sure there is no 
disagreement on major, multiyear, capital items or things like 
security cameras and the like. But how about the men and women 
to be on the other end of those security cameras?
    One of the things the public expects is to see police in 
the stations ready and visible. That not only improves 
security, but also improves the sense of security. Right now, 
those are not costs that the Federal Government covers. So we 
certainly would support funding earmarked specifically for 
safety and security. However, we would recommend to you, that 
it may be more broadly defined than it is in current law.
    Senator Reed. Let me ask another question which goes to the 
oversight that the FTA performs for the Office of Safety and 
Security. They are responsible for developing at the Federal 
level these best practices, guidelines, and performing audits 
at the request of local transit agencies. I wonder--Mr. Millar, 
Mr. Molofsky, and Mr. White--what has been your experience with 
the Office of Safety and Security? Do they need additional 
legislative authority, additional resources, different 
emphasis?
    Mr. Millar.
    Mr. Millar. We have been pleased in the last couple of 
years that Safety and Security has gotten a great deal more 
attention. They have added additional staff. We would support 
additional staffing for those offices. We do believe that would 
be appropriate and necessary. I do not know that we have a 
specific recommendation at this point. We may be able to 
provide that later. But we do believe they need more resources, 
yes, sir.
    Senator Reed. Mr. Molofsky.
    Mr. Molofsky. I would agree. I would add that it is one 
thing to have a good plan. It is another thing for all of the 
people who work on the transit system to know what that plan is 
and be trained to implement it. And to that extent, more 
resources are needed both within the FTA's Office of Safety and 
Security and through FTA generally, to enable these systems to 
provide the appropriate training to make sure that the 
workforce is prepared to respond.
    Senator Reed. Thank you.
    Mr. White I must say, I am a user of your system. When you 
own a 1991 Ford Escort, you find yourself using the system, 
sometimes unexpectedly.
    [Laughter.]
    It is a wonderful system. But would you comment now?
    Mr. White. Mr. Chairman, I hope we are at least as 
reliable, if not more reliable, than your 1991 Ford Escort.
    Senator Reed. Well, you are more reliable.
    [Laughter.]
    Mr. White. I know that the Administrator said that they are 
evaluating the issue of personnel and manpower with the 
Secretary and the Office of Management and Budget. Ultimately, 
they would need to be the best judge of their needs. Certainly, 
it is a program that has grown quite large over the years with 
a very limited amount, if any, of additional personnel.
    There seems to be a dependency on third-party consultants 
to provide the technical support to the Federal Transit 
Administration with its many oversight responsibilities. Given 
the increasing importance which we all must attach to the 
safety and security issue, I certainly would not be surprised 
if it were their conclusion that additional manpower was 
required.
    Although one can benefit from independent help, you do need 
to have a fair amount of expertise on you own staff. I would 
hope that the FTA can satisfy themselves that they have an 
adequate amount of expertise.
    Senator Reed. Let me turn it over to Senator Allard.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Mr. Millar, in your testimony, you talked about providing 
some audit services to your membership. We heard from the 
previous panel that they also provide audit services. Do we 
have a duplication of effort here?
    Mr. Millar. I do not believe we do. The APTA program goes 
back to the mid-1980's. Much of what the Federal Transit 
Administration does, to my knowledge, is based on the 
guidelines that have been developed in the industry.
    As I testified, representatives of FTA, as well as the DOT 
Office of Intelligence and Security, sit on our committees to 
make sure that we are coordinating properly. There are 
certainly transit systems that are not members of my 
association, but do receive Federal aid. And, quite properly, 
the FTA needs to assist in meeting their needs as well. So, I 
do not believe there is duplication.
    Senator Allard. Let me understand this. There are people 
that are in mass transit that are not members of your 
association. You believe them to use the services provided by 
the FTA.
    Mr. Millar. Yes, sir.
    Senator Allard. Now your members, do they generally use 
your audit services and then supplement them with the FTA? Or 
do they just say, well, what you provide is adequate enough, we 
do not need to use the FTA's.
    Mr. Millar. You have to talk in classes of our members. The 
commuter rail members use our services. The rapid transit and 
light rail members use either our services or Congressionally 
mandated State services that are based on ours. The bus 
services, I would think, generally speaking, would either use 
ours or the FTA. But I really do not know that they overlap 
between the two. I would be glad to get that information for 
you, sir.
    Senator Allard. It would be helpful.
    Mr. Millar. Sure.
    Senator Allard. Thank you. Also, could you give us some 
estimate as to how many transit agencies have--we were just 
talking about safety plans in place. Of those who have safety 
plans in place, how many of them do you think are considering 
the possibility of terrorist attacks?
    Mr. Millar. All the commuter rail systems have some form of 
safety plans. There is one brand new one that is in the process 
of putting theirs together now. All of the rail systems in the 
country have safety plans. To my knowledge, there are 26 of the 
major bus systems that are members of APTA and use our 
guidelines. I do not know how many bus systems that are not in 
our program may have their own safety plans underway. I do not 
believe we have that information.
    Senator Allard. Thank you.
    Mr. Millar and Mr. White, you must balance a lot of 
interests when you are putting together your safety plans. Your 
members not only operate mass transit systems, but also bus 
lines.
    Mr. White, you alluded that you not only operate a large 
mass transit system, but also a lot of buses separately. And 
when it comes to terrorist attacks and safety plans and 
whatnot, do you find it difficult in establishing priorities 
between those two areas of service, or do you find that you can 
pretty well put together adequate safety plans, including 
consideration of possible terrorist attacks with both of those 
types of services that you provide?
    Mr. White. I guess Mr. Millar is looking at me, so, Senator 
Allard, I guess that is my cue to go first.
    Senator Allard. You go first and he will wrap it up.
    Mr. White. Since my arrival at WMATA in August 1996, I have 
been on record, and stated before my arrival, that safety was 
my top priority. Coming into WMATA, it was clear that there 
were a number of issues that required attention. As I entered 
the authority, we were coming off of a very unfortunate 
incident where one of our rail operators lost their life.
    Safety has had my utmost attention, and it is the highest 
priority of the authority for both bus and rail. I would admit 
that there are probably more things that still need to be done 
for both bus and rail. The bus system is much larger and 
deserves to get all the attention that it requires. I appointed 
a chief safety officer immediately upon my arrival and made 
that department a direct report to me. I might have been the 
first General Manager in the country to do that. A number of 
transit systems have followed since then. We have built that 
department up from about 7 or 8 people to about 25 people in 
just a couple of years.
    Our police department--and I believe we have done an 
outstanding job that has been recognized. In a recent audit 
conducted by the General Accounting Office which looked at a 
number of our programs, including safety and security, their 
quote, which I think said it all, was an assessment by both FTA 
and APTA that we were, ``very good in both safety and 
security.''
    We have done a number of things that are leading the 
industry in terms of best practices. We are not resting on our 
laurels. More needs to be done. Quite frankly, much of it does 
require resources to accomplish.
    Senator Allard. Mr. Millar, for your membership?
    Mr. Millar. Yes. The transit systems around the country are 
controlled either as parts of city or county departments, 
usually, or as separate authorities with local citizens or 
local elected officials on the board. The budget battle is 
always there. I would not kid you, but based on what I have 
heard since September 11, everyone is understanding the need to 
rejuggle their budget priorities.
    However, I anticipate that they will run into the stark 
reality, as I indicated in my earlier answer, in taking many of 
the steps to improve security. It is going to require very 
difficult choices between the amount of extra security one puts 
in place, which are generally operating costs, versus, let us 
say, the number of bus route miles that one operates, or the 
bus vehicle miles.
    That will be a topic of conversation throughout the 
country, and I would encourage that as this Committee looks at 
this whole security issue, that we be realistic about the 
funding that is going to be necessary. We cannot kid the 
American public: To have good, safe, secure systems costs 
money.
    Senator Allard. Where I see us struggling, if we look at 
Mr. Molofsky's figures there, most of the instances we see 
reported on there are actually on buses. But, then, you could 
have one incident on a train that could be more catastrophic 
than 25 incidents on a bus. And that is one of the things, Mr. 
Chairman, that we will have to struggle with and this Congress 
will probably have to struggle with.
    Now, the country has more than 500 transit agencies running 
the gamut of really large, sophisticated agencies, like the one 
here in Washington, and then there are those that have smaller 
agencies, like the one I have in my hometown of Loveland, 
Colorado--Valentine capital, I might add. Do such desperate 
systems have very different emergency needs? And do smaller 
systems also have adequate access to technical and financial 
assistance, in your view, Mr. Millar?
    Mr. Millar. In my view, there is certainly a difference in 
scale that results in a difference in need. But safety and 
security must be dealt with in every size property.
    Americans tended to think that smaller communities in rural 
areas and perhaps places away from the largest cities were the 
safer place. Unfortunately, the history of our country in the 
last few years is terror can strike anywhere. So, we are 
working with the FTA and looking at regional meetings that 
might be easier for smaller members to get to. We have also 
recently amended our bus program to allow for joint bus audits 
of smaller communities. We tested that in the State of Illinois 
among small properties and it worked very well. We need to 
rethink where and when things can happen and who needs to know.
    Senator Allard. I want to follow up on the smaller systems, 
like my hometown. They are relying pretty much, from what I can 
tell, on their local police departments and maybe the 
sheriff 's department in some instances, to provide the safety 
requirements to at least be a participant if there is a 
terrorist act or some kind of event that occurs on those 
systems. In your view, do you believe local law enforcement is 
prepared to respond to these situations? And would you comment 
a little bit about how much coordination and planning is 
happening right now between these smaller transit systems and 
local law enforcement?
    Mr. Millar. I am certainly no expert on the capability of 
law enforcement in smaller communities. I can tell you, as a 
General Manager, as I was for many years in a larger community, 
that it is only in recent years that law enforcement in my 
experience has begun to come to grips with terrorism. And of 
course, that is because we have all learned a lot more there. 
So, I would anticipate that there would be more need to train 
law enforcement officers, particularly in smaller communities, 
who may not have had to face this before.
    I would think that we need to look to partnerships. For 
example, one of the things that we used to do when I was in 
Pittsburgh was do joint exercises with the surrounding transit 
agencies. They were very small, we were very large, so that we 
could share our expertise and knowledge. As Mr. White 
testified, and I alluded to, having the relationships 
established with local police, local fire, and local emergency 
workers, long before there is a need, becomes key and becomes 
critical, and that is true whether you are talking about the 
largest systems or the tiniest systems.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Allard.
    Let me follow up quickly with just a few questions.
    Mr. Millar, you may not have these numbers, but if you 
could get them to us, we would appreciate it. Generally what on 
average does a transit system spend on security, if you look 
across the Nation? And then, if you could help us, is it 
adequate?
    Mr. Millar. I really do not know, but we will be glad to 
get that for you, sir.
    Senator Reed. Thank you. And also, if you could help give 
us your perspective as to what might be an adequate level. I 
know it might change system by system, but give us an idea.
    Mr. Millar. Yes, sir.
    Senator Reed. Mr. Millar, you suggested, and Mr. White and 
Mr. Molofsky, that there might be some comments you would like 
to make informally. We will arrange, subject to our procedures, 
for an opportunity to get your informal feedback, which you 
might be able to share some details we cannot share now.
    Mr. Molofsky, you also indicated that one of the key 
elements is training of transit operators, the whole workforce. 
Is there any system in particular that you would point out as 
being a model of that, an exemplar of that system?
    Mr. Molofsky. I am sitting next to one.
    [Laughter.]
    Senator Reed. Good.
    Mr. Molofsky. WMATA is a good example. I just want to add 
another note on that.
    Senator Reed. Please.
    Mr. Molofsky. We know that Lamar, Colorado is not 
Pittsburgh, Pennsylvania. And we know that systems of different 
sizes are going to require different kinds of plans and 
programs requiring more or less amounts of money.
    The point I want to emphasize is this. Just as the local 
police in Manchester, Tennessee, responded very effectively to 
the Greyhound incident, we believe that local law enforcement 
can respond to incidents as they occur. We have the highest 
regard for the police force in this country.
    However, at the same time, what we are stressing is the 
need for a set of standards, of requirements for the transit 
systems, both large and small, to convey to their workforce to 
have in place the kinds of security systems that make sense for 
that community. We are not saying that Pittsburgh's system 
should be applied to the smaller towns in other parts of the 
country. But as we speak and as we sit here, the bus systems 
and bus drivers, which are highly exposed on the Nation's 
roads, are not working for systems that are required to have 
appropriate programs in place. And that is where we are 
pledging today to work with the industry and the FTA to 
identify what those kinds of programs should be and look for 
the resources to make sure that they can provide them.
    Thank you.
    Senator Reed. Thank you.
    Finally, Mr. White, you alluded to one of the key elements 
in your ability to respond so effectively, was redundant 
communications. And I am just wondering, Mr. Millar, Mr. 
Molofsky, Mr. White, is that a problem in other systems? 
Obviously, it was not a problem in Washington, thank goodness.
    Mr. Millar.
    Mr. Millar. Everything we have heard from our members is 
that that is essential because cell phones might work one 
place, radios another, land lines another. Ten minutes from 
now, what worked 10 minutes ago does not work, but something 
else has come back on-line. So, yes, redundant communications 
are essential.
    Senator Reed. And I presume that is another resource 
challenge in terms of getting that in every system, from Lamar, 
Colorado, to Pittsburgh, Pennsylvania.
    Mr. Molofsky.
    Mr. Molofsky. It is not just communication between the 
driver and the transit authority and the enforcement agencies. 
It is communication that allows the transit agencies 
themselves, the GPS and other systems, to track the equipment 
that is on the street. This is important for Greyhound, as we 
have learned and had reinforced yesterday, and it is equally 
important for our transit systems. And Mr. White emphasized it 
and we think it is an important program that should be 
supported around the country.
    Senator Reed. Mr. White, a comment or anything else that 
you might want to add at this juncture?
    Mr. White. Mr. Chairman, I would go back again to stressing 
the importance of interagency coordination. You have heard a 
number of us speak to that and, clearly, the Administrator has 
spoken to that. To emphasize the point, make sure that 
everybody has practiced well so that when you show up on the 
scene, people are not fumbling all over one another trying to 
find out who has jurisdiction on the scene.
    That is absolutely critical, and only comes from training 
and coordination, actually, inter-personal relationship. You 
need to know these people because they are going to be your 
best friends. It is going to be a mutual-aid society, and that 
is essential.
    Another issue--you have to understand the nature of the 
world that we live in here in Washington, DC--we have found, of 
course, to be of tremendous assistance to us, is the sharing of 
intelligence information. That is absolutely critical. Although 
one can never guarantee that you can prevent something from 
happening, the best place to start is on the front end, to know 
that you should be on the look-out for something, rather than 
on the back end, trying to respond to something that happened. 
So that is very important.
    Senator Reed. Well, thank you, Mr. White, Mr. Molofsky, and 
Mr. Millar, for your excellent testimony. The good news, I 
believe, is that we are aware of the very serious threat to the 
security of the public as they try to move about this country. 
With that knowledge, I hope that we can go forward and do more 
to ensure their security and safety. But it is a very difficult 
and daunting task, as suggested by you gentlemen and Ms. Dorn.
    And Senator Allard and I obviously pledge our best efforts 
to work with everyone to ensure you have the resources and the 
direction to go forward and to ensure that we do all we can to 
prevent any type of possible incident on our transit systems 
throughout the United States.
    Senator Allard.
    Senator Allard. Mr. Chairman, just to kind of bring this to 
a close here. It is obvious that there has already been a 
considerable amount done and thought put in by the industry. I 
want to congratulate you.
    But after September 11, things have changed. Certainly it 
is appropriate for us to review carefully the new situation 
that now exists in this country. I am pleased with the comments 
from the Chairman. We will carefully review what was said here 
and carefully review as far as your industry is concerned and 
see what there is that we can do to be helpful in this effort 
to make our transit systems safer.
    Thank you.
    Senator Reed. Thank you, Senator Allard.
    This hearing is adjourned.
    [Whereupon, at 4:07 p.m., the hearing was adjourned.]
    [Prepared statements, response to written questions, and 
additional material supplied for the record follow:]
             PREPARED STATEMENT OF SENATOR DEBBIE STABENOW
    Thank you, Mr. Chairman. I am glad you have called this hearing and 
I appreciate our witnesses coming before the Subcommittee today.
    September 11 will certainly be remembered as a day that changed our 
Nation forever. As we continue to grieve the lives lost in this 
horrendous attack, this Congress also has come together to tackle the 
serious security and anti-terrorism issues that must be addressed, in 
order for our Nation's business to go on.
    One of the issues foremost on our minds is addressing the public's 
safety. Whether it is on our Nation's airplanes, trains, and buses, in 
our offices and Federal buildings, or even in our football and baseball 
stadiums, this attack has made us all feel vulnerable. We must remember 
that terrorism is only victorious when it makes us fear and question 
the way we conduct our daily lives. Our daily commute to work, weekly 
trips to the grocery store, weekend football games--all of these things 
must go on, if we are to defeat this insidious threat. That is why it 
is paramount that we reassure Americans of the continued safety of our 
Nation's public transportation system.
    Millions of Americans rely on our Nation's buses, subways, and 
commuter trains every day to travel to their homes, schools, and jobs. 
While the U.S. transit systems have fortunately not been the focus of 
terrorism, buses, trains, and subways have long been targets of 
terrible attacks in such countries as Israel, France, and Japan.
    Many of our public transportation systems have responded to the 
growing threat of terrorism, and have added additional training and 
security programs to protect passengers, employees, and facilities from 
the devastating consequences of a terrorist act. In the wake of this 
terrible tragedy, we need to expand and support these efforts to 
protect the public's safety.
    Mr. Chairman, I also would like to commend both the Washington 
Metropolitan Area Transit Authority (WMATA) and the New York City 
transit authorities for responding quickly and effectively to the 
September 11 attacks.
    After the Pentagon was struck by the hijacked airliner, WMATA 
closed the Pentagon Metrorail Station and delivered engineers to assess 
the structural damage. The system also provided buses to help transport 
those injured at the Pentagon to area hospitals, and provided several 
Metrobuses to assist DC Metropolitan Police in moving personnel to 
several locations throughout the District.
    Both Washington and New York transit systems also helped passengers 
safely return to their homes and their loved ones within hours of the 
attack. Even in the wake of these horrible attacks, the Washington and 
New York City transit employees kept these regions moving, safely, and 
efficiently.
    I know the witnesses before us today have an impressive breadth of 
experience on this topic, and I look forward to hearing their ideas and 
insight for helping maintain the safety of our Nation's public transit 
systems.
    Thank you, Mr. Chairman.
                               ----------
              PREPARED STATEMENT OF SENATOR JON S. CORZINE
    Chairman Reed, thank you for calling this hearing of the 
Subcommittee on Housing and Transportation to discuss the safety of our 
transit systems. This is a critical question for this Subcommittee to 
consider in the aftermath of the horrific attack on our Nation on 
September 11 and I look forward to hearing the testimony of Federal 
Transit Administrator Dorn and the other witnesses.
    Mr. Chairman, we saw what a vital role our mass transit system can 
play in the events that unfolded on September 11 when, in both 
Washington and New York, trains and buses helped ease the crush of the 
thousands of people leaving their offices at the same time, trying to 
get home to their loved ones. I can tell the Committee that, in the 
aftermath of this attack, mass transit ridership into New York City 
remains at high levels.
    We have to make sure that mass transit will be able to continue to 
play such a vital role. That cannot happen unless people know that the 
trains, buses, and ferries they are riding are safe.
    That is why I am glad to hear from the witnesses today and I look 
forward to considering how the Federal Government can help to keep our 
Nation's mass transit systems safe and secure. But I want to point out 
that any look at the security needs of mass transit must eventually 
consider the need for increased rail construction.
    Mr. Chairman, one of the many lessons we learned from this tragedy 
in my home State is how much of a strain a terrorist attack can put on 
a mass transit network. While I am proud to say that the State agencies 
that coordinate transit between New York and New Jersey--New Jersey 
Transit and the Port Authority of New York and New Jersey--met the 
challenge, it is clear that this overloaded infrastructure needs to 
provide more options to get people off the road.
    Mr. Chairman, we need to ensure that there are enough rail lines to 
support cities like Washington and New York both during normal times as 
well as in emergencies. That is why I am supporting major rail projects 
for the New York metropolitan area such as building a rail tunnel under 
the Hudson River from New York into New Jersey. Such a project is 
necessary to help the metropolitan area meet this new demand and I will 
be working to secure funding for it in the future.
    Only by increasing the availability of mass transit, as well as 
increasing security on buses, trains, and ferries, can we say that we 
have a safe and secure transit system.
                               ----------
                 PREPARED STATEMENT OF JENNIFER L. DORN
             Administrator, Federal Transit Administration
                   U.S. Department of Transportation
                            October 4, 2001
    Mr. Chairman and Members of the Subcommittee. Good afternoon. Thank 
you for the opportunity to testify on behalf of the Federal Transit 
Administration regarding the security of our Nation's transit systems.
    Every year, America's public transportation systems carry more than 
9 billion passengers and employ nearly 400,000 people. It is estimated 
that our public transportation infrastructure--subways, light rail, 
buses, ferries, and commuter railroad services--is valued at hundreds 
of billions of dollars. Ensuring the security of the Americans who 
depend upon this infrastructure, as well as the security of these 
important assets, has always been an important duty of every transit 
agency, but the events of September 11 have proven to all of us this 
responsibility must receive even more attention and resources in order 
to keep our communities safe and moving.
    I want to express my personal gratitude to our transit colleagues 
in New York and Washington DC, who had emergency response plans in 
place and the courageous leadership to take action when the 
unimaginable happened. We have all been riveted by stories in the press 
about the heroes of September 11. I have one more I would like to 
share.
    At 8:52 a.m. on September 11, minutes after the first hijacked jet 
plowed into One World Trade Center, a Port Authority Trans-Hudson 
(PATH) train master gave life-saving instructions to conductors and 
operators.
    A train from Newark, carrying about 1,000 passengers, had just 
pulled into the station below the World Trade Center. The train master 
told the crew to keep everyone on the train, board everyone in the 
station, and immediately depart for the 
Exchange Place stop in Jersey City. Public transportation employees 
immediately evacuated passengers who mistakenly left the train.
    A train from Hoboken carrying another 1,000 people was just behind 
the Newark train. The train master told that crew to keep the doors 
closed at the Trade Center and head immediately to Jersey City.
    The train master then told another train in Jersey City to 
discharge all passengers and head back to the World Trade Center to 
evacuate remaining travelers and transit personnel. That train departed 
with its precious cargo at 9:10 a.m., 40 minutes before the first 
building collapsed.
    That train master, Richie Moran, and PATH's emergency response 
plan, saved thousands of lives. As we watched the death toll climb in 
New York, it is astounding to realize that no one riding the PATH or 
New York City subway lines that morning was injured.
    At the Washington Metropolitan Area Transit Authority, similarly 
quick action occurred. Within minutes of the Pentagon crash, all 
Metrorail trains were ordered into tunnels, where they would be safe 
from any further air attacks. Twelve minutes later, with the skies 
clear, Metro was up and running safely--once again.
    The State Department reports that in 1991, 20 percent of all 
violent attacks worldwide were against transportation targets; by 1998, 
40 percent involved transportation targets, with a growing number 
directed at bus and rail systems. The 
recent attacks on the World Trade Center and the Pentagon using 
hijacked airliners reminds us all that we must respond to a new 
terrorist reality--terrorism that is well-financed, well-organized, and 
ruthless. The credible threat of increasing terrorism directed toward 
our Nation's transit systems requires that we take immediate prudent 
action to prevent, prepare for, and respond to violence--the nature and 
magnitude of which was once unimaginable.
    Today, I would like to share with you the immediate steps that FTA 
is taking to help keep our communities safe and moving, and to discuss 
some of the issues that we believe should be considered as the 
President and Congress examine the broader implications of the new 
terrorist environment.
    I want to talk with you about the work we have underway to help our 
community public transportation agencies cope with this threat. There 
are 5 components to our security initiative: assessment, planning, 
technology, testing, and training.
    First, assessment. Enhancing transit security must begin with an 
in-depth, professional assessment of the threats to and vulnerabilities 
of each transit system. This is not a ``one size fits all'' 
undertaking; every transit system has different components--tunnels, 
bridges, open rights-of-way--and different intersections with other 
means of transportation--connecting with airports, train stations, 
highways. Some of our transit systems are 100 years old and coping with 
design features that could never have anticipated even the criminal, 
let alone the terrorist, threats of today. Other systems are brand-new, 
built using security-minded design concepts and state-of-the-art 
technology.
    In order to ensure an integrated, intermodal response to security 
concerns, Secretary Mineta has created the National Infrastructure 
Security Committee (NISC). The NISC's mission is to executive 
preemptive, preventive, protective, and recovery efforts for critical 
elements of the U.S. national transportation system. FTA is working 
with NISC, the States, and transit agencies to identify high value/high 
consequence transit operations, as well as their current protection 
strategies. An initial list has already been developed. We will be 
working with NISC and other Federal entities involved in such efforts 
to coordinate strategy and minimize duplication of effort. FTA will 
also be working with NISC to develop national standards for a prudent 
level of protection for categories of critical assets. We will work 
with our counterparts within DOT and in other agencies to identify and 
close the gaps in security.
    The second component of FTA's security initiative is planning. 
Effective response to an act of terrorism requires instantaneous and 
sound decisionmaking in a volatile, high-pressure environment. Although 
our largest transit operations already have emergency response plans, 
small- and medium-sized transit agencies are not always well-prepared, 
and even our largest agencies need to reexamine their plans in light of 
today's potential threats. FTA plans to provide hands-on assistance to 
transit agencies as they develop and refine their emergency response 
plans in light of their security assessment findings and heightened 
terrorist threats. These plans serve as blueprints for action in the 
wake of an attack. They articulate the steps to take in order to notify 
authorities of the incident, evacuate passengers, protect personnel and 
equipment, activate a unified command and communications system among 
transit, police, fire, and emergency medical units, and restore the 
system to normal. In the wake of a terrorist attack or even a natural 
disaster, we cannot afford to lose precious moments simply trying to 
figure out what to do; plans must be in place.
    The third component of our security initiative involves technology 
and capital equipment investments. FTA is evaluating the need for 
purchasing equipment and technology to enhance security and emergency 
preparedness. These acquisitions may range from personal protective 
equipment for train operators and station managers, to surveillance 
equipment for stations and facilities, to readying the latest chemical 
and explosive detection systems for deployment in transit systems.
    The fourth component involves testing. When I visited with the New 
York transit officials in the aftermath of the World Trade Center 
attack, I asked them what advice they might share with other transit 
agencies based on their own experience. Their advice? In addition to 
having an emergency response plan in place, they recommend that every 
transit agency conduct regular emergency drills--not just fire drills--
to keep skills sharp, update response plans, and build personal 
relationships with counterparts in the police, fire, and emergency 
medical response organizations. Although regular tests and drills are 
routinely recommended by security experts in FTA and elsewhere, there 
is nothing like hearing advice from people who have lived it. As a 
result, FTA plans to work with local transit agencies to conduct full-
scale emergency drills to test their plans and equipment.
    Finally, we will be offering additional security training and 
workshops. We intend to expand our free security and emergency response 
training to incorporate new 
security strategies and tactics, and to give more local transit 
employees the opportunity to attend emergency response training. It is 
imperative that we have a transit workforce that understands security 
issues and is fully prepared to respond should an emergency occur.
    In an effort to assist transit operators around the country as they 
reevaluate potential security threats, their emergency response plans, 
employee training needs, and ways to both reassure and work with the 
public to reduce security risks, FTA will soon be mailing a Security 
Toolkit to 600 transit agencies throughout the country. The toolkit 
will include resource guides, planning tools, training opportunities, 
and sample public awareness publications.
    FTA is fundamentally a grant-making agency. We manage $8 billion in 
grants for programs ranging from the purchase of buses to the 
construction of new subway systems. We also provide training and 
technical assistance to local transit agencies. We are neither an 
operational agency, nor a traditional regulatory agency.
    One of the greatest challenges that we all face is ensuring that 
the safety and security of our transit systems remains a high priority 
in years to come. The sustainability of whatever requirements, 
programs, and funding we put in place today must be considered as we 
move forward--particularly in light of the other costs that loom on the 
horizon. Although a number of brand new systems are being built 
throughout the Nation, we also have many aging systems that need 
rehabilitation and redesign. And figuring out a way to accomplish all 
that needs to be done will be a challenge for every level of 
government.
    Let me close by, again, thanking the Committee for initiating this 
dialogue. I am eager to work with you to keep our communities safe and 
moving.
    Thank you.
                               ----------
                PREPARED STATEMENT OF WILLIAM W. MILLAR
         President, American Public Transportation Association
                            October 4, 2001
    Mr. Chairman, thank you for this opportunity to testify on the 
security and safety of public transportation systems. We commend 
Congress for its quick response to the horrific terrorist attacks on 
September 11, 2001.
About APTA
    The American Public Transportation Association (APTA) is a 
nonprofit international association of over 1,400 public and private 
member organizations including transit systems and commuter rail 
operators; planning, design, construction, and finance firms; product 
and service providers; academic institutions; transit associations and 
State departments of transportation. APTA members serve the public 
interest by providing safe, efficient, and economical transit services 
and products. Over 90 percent of persons using public transportation in 
the United States and Canada are served by APTA member systems.
Overview
    Mr. Chairman, the APTA thanks you, and the Committee on Banking, 
Housing, and Urban Affairs, for crafting the Transportation Equity Act 
for the 21st Century (TEA-21), which has so effectively improved the 
industry's ability to meet demands for capital investment and service. 
The legislation has significantly improved our industry's ability to 
meet the growing demand for service in urban, suburban, and rural 
communities throughout America.
    The good news is that TEA-21's increases in Federal investment and 
the predictability of those funds has paid off. Public transportation 
ridership is up 21 percent over the past 5 years, to the highest levels 
in 40 years. The Federal investments in TEA-21 and earlier legislation 
enabled the transit industry to develop new transit services, and to 
upgrade and modernize older transit infrastructure. This investment 
paid enormous dividends on September 11, when public transportation in 
New York City and in Washington, DC helped safely evacuate citizens 
from center cities. Indeed, this same story was true around the 
country, as transit systems quickly and efficiently evacuated people 
from closed airports and downtown areas. Mr. Chairman, we remember that 
the interstate highway program was begun by President Eisenhower as a 
national defense interstate highway program. We can now certainly 
recognize that public transportation too has a significant national 
defense component, and we are extremely proud of our transit systems in 
New York, Washington, DC, and around the country, and how they 
responded so successfully to the horrific events of September 11.
Post-September 11 Activities
    Mr. Chairman, APTA was honored and pleased that Transportation 
Secretary Norm Mineta came to Philadelphia Monday morning to deliver 
the keynote address to our Annual Meeting where over 2,000 transit 
professionals gathered. He emphasized the importance of public 
transportation, and the critical importance of a 
continuing focus on safety and security. In particular, he said 
``preparation equals performance,'' and I want to assure you that we 
are taking that message to heart.
    Specifically, let me respond to the Subcommittee's questions 
regarding what steps APTA is taking to assist its members in improving 
safety, and what would be useful to transit systems in that regard.

<bullet> On September 19, 2001, we wrote to the Federal Transit 
    Administration (FTA) offering our full support and cooperation as 
    the FTA and DOT develop programs and priorities in response to the 
    tragic events of September 11. In that letter, which is included as 
    an attachment to this testimony, we provided an initial list of 
    critical needs for transit-related safety and security functions. 
    These include capital items, operational items, and research and 
    development needs in the industry. Needless to say, considerable 
    investment is needed to begin to make these items available 
    throughout our industry.
<bullet> At APTA's Annual Meeting in Philadelphia, we added a special 
    forum on the events of September 11, and how our transit systems 
    responded so effectively to it. Officials from New York, 
    Washington, DC, and other key cities discussed what they did in 
    responding to the attacks and how they successfully evacuated 
    citizens safely from center cities. Sharing critical information 
    and best practices among our membership is one of the strongest 
    resources we can provide as an association. We will be sharing 
    these ``lessons learned'' with our membership and the Federal 
    Transit Administration.
<bullet> Together with the Mineta Institute in San Jose, California, 
    the American Association of State Highway Transportation Officials, 
    and DOT's Research and Special Projects Administration, APTA will 
    partner in a special invitation-only conference in Washington, DC 
    in late October to focus on a Mineta Institute study on terrorism 
    and how to respond to it. This is the beginning of a comprehensive 
    industry effort to discuss security issues on an ongoing basis at 
    meetings, seminars, and conferences around the country.
<bullet> Discussions are underway with the International Union of 
    Public Transport (UITP) to coordinate efforts among transit systems 
    worldwide to address safety and security issues.
<bullet> Finally, we will continue to work closely with the DOT and FTA 
    in making certain that safety and security remain paramount issues 
    in our industry and that programs being developed by the DOT 
    reflect industry needs and operations. We understand that FTA hopes 
    to make financial and technical assistance available to transit 
    systems around the country to assess their state of readiness to 
    meet security threats. We strongly urge that this initiative be 
    properly funded. Moreover, FTA Administrator Jennifer Dorn also 
    spoke at our Annual Meeting on Monday, and stated that FTA would be 
    sending a ``rapid response'' toolbox to every transit system in the 
    country, and we look forward to collaborating with the FTA in that 
    effort.

    Let me now outline for you some of the things we, as the 
association for the public transportation industry, do to promote 
safety and security in public transportation, and explain how these 
plans and programs address significant issues.
Safety and Security Plans
    We are proud as an association to have established the industry 
standard for transit system safety program plans, which include 
security and emergency response elements. In October 1986, APTA 
initiated activities to develop a safety management program for the 
public transportation industry. A pilot program of high-level, formal 
safety audits were scheduled at six volunteer transit systems over an 
18 month period. Upon completion of the pilot program, APTA's staff 
gathered information from the auditors and participants in the pilot 
audits, and produced a report, which recommended a course of action on 
safety accreditation. The APTA Manual for the Development of Transit 
System Safety Program Plans was a result of these recommendations.
    The Manual serves several purposes. It establishes a recommended 
format for System Safety Program Plans (SSPP). The SSPP is developed by 
each transit system; it identifies all safety-related responsibilities, 
and assigns these responsibilities to proper areas within the 
organization. A transit system maintains oversight of its safety status 
and program to ensure all responsibilities are being carried out and 
coordinated. This process is known as System Safety. A transit system 
establishes a SSPP in a formal written document. It implements the SSPP 
by policy directives from the chief executive officer.
    The APTA Manual assists transit systems with established System 
Safety Program Plans in the development and definition of their safety 
programs. It also provides tangible evidence to the public and 
governmental oversight agencies that the transit industry possesses the 
means and expertise to develop sound, effective, proactive safety 
programs designed to reduce accident potential and increase the 
efficiency of transit operations.
    A key element of the SSPP is security. Each transit system's safety 
program should provide a proactive, prevention-oriented approach to 
security. This element emphasizes the importance of identifying 
potential threats and areas of vulnerability, developing approaches 
that will minimize those threats and vulnerabilities, and demonstrating 
a clear and proactive approach to security.
    Emergency Response Planning is also a primary component of any 
safety program. As such, it must be given constant attention. A typical 
process for the component includes an approved, coordinated schedule 
for all the emergency response 
elements. Meetings with outside agencies, emergency drills, and 
revision and distribution of Emergency Response Procedures are 
activities that are then scheduled on a periodic basis with necessary 
approvals and checks for completion built in. The safety unit of the 
transit organization is generally responsible for coordination of these 
types of emergency response functions. As part of the regular reports 
to general management issued by the safety unit, status reports on 
emergency response activities are included. These reports then provide 
an audit trail for both internal and external audits.
APTA Safety Management Audit Programs
    Once having created a system safety program, the industry next 
turned to ways to make sure that systems were implemented in a 
comprehensive and voluntary way. As a result, the Safety Management 
Audit Program was created to equip transit systems with industry-
created formats for developing a System Safety Program Plan (SSPP) and 
to provide formal evaluations on how well those System Safety Program 
Plans have been implemented. APTA has a Director of Safety and Security 
and a staff of auditors who carry out this work. The audit and program 
participation is completely voluntary and is supported by dues paid by 
industry participants. The audits are completed every 3 years. There 
are three different programs: the Rail Safety Audit Program, the 
Commuter Rail Safety Management Program, and most recently the Bus 
Safety Management Program.
    So successful has APTA's SSPP and audit program been that the APTA 
system program plan format and elements within the Rail Safety Audit 
Program (including security) are officially recognized by the Federal 
Transit Administration in its Rail Safety Oversight regulation at 49 
CFR Part 659 as a way of meeting the regulatory requirements for System 
Safety Program Plans for fixed guideway systems. The audit includes an 
extensive review of all safety-related functions of the organization, 
and provides a mechanism for continual improvement for system safety. 
However, since each system is unique, the plan must allow for 
differences unique to each system.
    All but one of the Nation's 18 commuter rail systems participate in 
APTA's audit program, and we are in discussions with that remaining 
system. Moreover, all rail transit systems in the country participate 
either in the APTA Rail Audit Program or in State programs that follow 
the guidelines for system safety established by APTA. A similar program 
for the Nation's bus systems is being implemented by APTA. This 
voluntary program for bus operations similarly includes elements 
specific to security and emergency preparedness.
    The APTA System Safety Program Plan format and elements within the 
Commuter Rail Safety Management Program (including security) are 
recognized by the Federal Railroad Administration as a way of meeting 
the guidelines for System Safety Program Plans for commuter rail 
systems. Each audit addresses policies, processes, and procedures set 
out in the transit agency's safety plan and includes a review of 
supporting documentation, interviews with agency personnel, and a 
variety of operational field observations.
    Under our Safety Management Audit Programs, each transit operation 
receives the benefit of an independent evaluation of its safety 
management processes by a team of experienced safety personnel. This 
evaluation plays a critical role in optimizing safety practices at each 
system.
    This evaluation assists each system's ability to demonstrate its 
diligence for safety and the ability of our industry to maintain self-
regulation.
Other APTA Safety Initiatives
    APTA has a Standing Committee on Public Safety that has a forum for 
industry personnel involved in policing and security functions to share 
information, experiences, and resources. This very active committee has 
subcommittees on Operations; Outreach; Professional Development and 
Strategic Planning. The committee also conducts a number of workshops 
and seminars on transit security in conjunction with APTA's 
conferences, and has a working partnership with other security/policing 
organizations including the International Association of Chiefs of 
Police, the International Railway Police, and the National Organization 
of Black Law Enforcement Executives.
    APTA has developed a Safety & Security on-line ``list-serve'' 
resource that enables its members to request information and pose 
questions to industry peers on matters pertaining to safety and 
security issues.
    APTA and its members have been instrumental in assisting the 
development and delivery of programs on transit system security as 
provided through the Transportation Safety Institute. Transit system 
personnel from numerous agencies continue to benefit from attending 
these training programs.
    APTA and its members have also assisted in the development and 
delivery of the Land Transportation Anti-Terrorism Training Program 
that was a joint effort of the Department of Transportation's Office of 
Intelligence and Security, and the Federal Law Enforcement Training 
Center. Many transit system personnel are benefiting from their 
participation in this program.
Standard Setting
    APTA is engaged in a broad-based standard-setting exercise in a 
number of significant areas, and clearly, standards play a key role in 
safety and security.
    In 1996, APTA's commuter rail members voluntarily undertook an 
effort with $2 million of their own funds to create Passenger Rail 
Equipment Safety Standards (PRESS). Our commuter rail members are 
regulated by the Federal Railroad Administration (FRA), which 
participated in the development of these standards. These standards are 
reviewed in an ongoing effort and are updated as necessary. As part of 
the PRESS program, the FRA, APTA, and the commuter railroads recently 
collaborated on a series of 10 courses to prepare railroad employees to 
meet new industry-wide training requirements.
    With the success of the commuter rail effort, APTA has turned to a 
similar initiative for transit rail equipment. Some 27 APTA rail 
members will be contributing over $3 million to develop a range of 
vehicle design and operational standards over the next 3 years.
    In addition, APTA has just been awarded a $400,000 grant by the FTA 
to help establish interface standards in the transit industry for 
Intelligent Transportation System applications.
    All of these standard-setting exercises help the industry bring a 
special focus to standardized products and services. These are 
activities that clearly help support safety and security goals.
Conclusion
    Mr. Chairman, these are just some of the issues that we think can 
help improve safety and security of transit services. We again thank 
you and the Subcommittee for your commitment to investing in the 
Nation's transportation infrastructure and look forward to working with 
you on safety and security issues and on the reauthorization of TEA-21.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                PREPARED STATEMENT OF ROBERT A. MOLOFSKY
               General Counsel, Amalgamated Transit Union
                            October 4, 2001
    Mr. Chairman and Members of the Committee, my name is Robert 
Molofsky and I am the General Counsel of the Amalgamated Transit Union, 
AFL-CIO, CLC, the largest labor union representing transit employees in 
the United States and Canada. It is my pleasure to appear here on 
behalf of our International President James La Sala to discuss the 
ATU's views and concerns about the safety issues facing the transit 
industry, as well as to offer recommendations for making our transit 
systems safer and addressing the heightened concerns in the wake of the 
September 11 terrorist attacks.
    As the representative of over 175,000 employees in the transit 
industry, maintaining and operating bus, light rail, ferry, over-the-
road bus, school bus, and paratransit vehicles throughout North 
America, the ATU views the safety and security of these transit systems 
to be of utmost importance. As such, we are extremely grateful for this 
Committee's decision to hold this hearing today and for inviting the 
ATU to participate on this panel.
    This is certainly a difficult time for those in the transportation 
industry, and indeed, for all Americans. It has now been 23 days since 
this Nation witnessed the horror of the events on September 11. Since 
then, President Bush, his Administration and this Congress have shown 
remarkable bipartisanship in their efforts to implement new counter-
terrorism measures. The airlines, along with the assistance of the 
Federal Government, have adopted stringent new security measures to 
better protect America's air travelers. And transit systems throughout 
the country, with the full support and assistance of the ATU, have 
begun to reexamine existing security procedures and emergency 
preparedness plans, in the hopes of preventing further tragedy.
    Despite all of these extraordinary measures being taken, we know 
that no one is immune from future attacks. Just this week, Bush 
Administration officials announced that there will likely be more 
terrorist strikes in the United States, possibly including chemical and 
biological warfare.
    This is not news to the ATU or the transit industry, who for years 
have faced startling statistics and real life events that have put the 
industry on guard for the very real potential of terrorist or quasi-
terrorist attacks.
    According to the most recent records of the U.S. Department of 
Transportation's Office of Intelligence and Security, in 1998, attacks 
against transportation and transportation infrastructures accounted for 
42 percent of all international terrorist attacks reported by the U.S. 
State Department. The Transportation Research Board found that 34 
percent of the violent acts against transportation target rail and 
buses.
    The devastating effects of such attacks against mass transportation 
have been seen throughout the world. Ongoing bombing campaigns directed 
at the Paris Metro have targeted trains, passenger terminals, and other 
rail facilities, resulting in hundreds of casualties. In 1995, between 
5,000 and 6,000 people were exposed to sarin gas in the Tokyo subway 
system, resulting in 12 deaths and marking the first time chemical or 
biological weapons have been deployed on a large scale by terrorists. 
And in Israel and Britain, buses have too often been the unfortunate 
targets of terrorist bombings.
    Mass transit systems in the United States have also figured 
prominently in many of these acts of terrorism and extreme violence. In 
a survey of transit agencies conducted in 1997, over 90 percent of the 
agencies surveyed said they had experienced bomb threats, more than 50 
percent with hate crimes, and almost 30 percent with hijackings and 
multiple victim shootings. In responding to terrorist events, almost 60 
percent of the transit agencies surveyed felt that they were not well 
prepared to deal with these kinds of activities. Attachment one 
summarizes some of the most violent attacks against mass transportation 
in the United States, beginning as far back as 1927, when two bombs 
exploded in two New York City subway stations, and as recently as May 
2001, when a city bus in Los Angeles was hijacked by an armed gunman 
and crashed into a minivan, killing the minivan driver and injuring 
seven others.
    Fortunately, these types of terrorist and quasi-terrorist incidents 
are rare. However, less severe forms of violence against the operators 
of public transportation vehicles are much more common. These frequent 
occurrences have plagued the transit industry in the United States for 
far too long. Attachment two summarizes some of the assaults against 
mass transit operators and vehicles that have occurred since last 
December, including the armed hijacking of a bus in Council Bluffs, 
Nebraska, the stabbing of a SEPTA bus driver in Delaware County, 
Pennsylvania, the brutal beating of another SEPTA driver in 
Philadelphia less than 2 months later, and the recent shooting aboard a 
Greyhound bus at a midtown Manhattan terminal that wounded four 
passengers.
    While the severity of these events may pale in comparison to the 
recent tragedies in New York and Washington, DC, these assaults are 
nonetheless a serious safety threat to transit personnel, passengers 
and to the rest of the traveling public who share the roads with our 
mass transportation vehicles. We saw the potential devastation that can 
result from such assaults in 1998, when a deranged passenger onboard a 
Seattle Metro bus shot and killed bus operator and ATU Local 587 member 
Mark McLaughlin, causing the bus to careen off a bridge and resulting 
in the death of one passenger and injuring 32 others.
    Because public transportation brings masses of people together and 
is highly visible and familiar, it is an attractive target for crime. 
Transit operators, in particular, are often the victim of such crimes 
as they are forced to deal on a daily basis with passengers who become 
angry over bus fares, delays, crowded vehicles, and for various other 
reasons. Clearly, such crimes result not only in harm to the operator 
but also seriously impair the ability of that operator to safely 
transport passengers.
    In response to the prevalence of such violent incidents, the 
Amalgamted Tranist Union has for years been steadfastly committed to 
addressing the threat of terrorist attacks against mass transportation 
and the growing rates of violence and assaults against transit workers 
and vehicles. In addition to raising awareness of the issue among our 
membership, the ATU has worked along with the transit industry to 
implement additional safety and security procedures in the workplace to 
protect our members. We have worked with and urged the Federal Transit 
Administration to include additional security measures in its model 
transit safety programs. And we have worked with Members of Congress to 
urge passage of legislation making assault against a transit operator a 
Federal crime, the same protection extended to airline pilots and 
flight attendants. Significantly, since 1998 with the passage of TEA-
21, Congress, at our urging, has provided increased funding to the 
National Transit Institute, enabling it to provide important safety 
research and training programs to transit workers.
    Over the last two sessions of Congress, we have also supported and 
urged passage of the Preparedness Against Domestic Terrorism Act, 
currently H.R. 525, originally sponsored by Congresswoman Tillie Fowler 
and presently sponsored by Congressman Wayne Gilchrest. This bill, 
which was unanimously approved by the Economic Development, Public 
Buildings, and Emergency Management Subcommittee and is now pending 
before the full Transportation and Infrastructure Committee, seeks to 
improve coordination of Federal efforts with regard to preparedness 
against terrorist attacks in the United States. As part of the 
development of the Domestic Terrorism Preparedness Plan required by 
this bill, an assessment will be required of the risk of terrorist and 
quasi-terrorist attacks against transportation, energy, and other 
infrastructure facilities, including passengers, personnel, and other 
individuals occupying such facilities. In addition, the bill requires 
an evaluation of available technologies and practices to determine the 
best means of protecting such facilities and persons from terrorist and 
quasi-terrorist attacks.
    I want to take this opportunity to ask the Members of this 
Committee to urge their colleagues on the House Transportation and 
Infrastructure Committee, as well as the entire House of 
Representatives, to expeditiously pass this long overdue legislation or 
incorporate its provisions into other comprehensive security 
legislation under consideration. And, if this bill appears before this 
body, I ask that you and your Senate colleagues do the same.
    While I have painted a rather grim picture of the security threats 
facing the transit industry, I would be remiss if I did not point out 
that the transit industry is one of the safest forms of transportation. 
In fact, according to the National Safety Council, riding a bus is 91 
times safer than traveling by car and taking the train is 15 times 
safer than a car. One of the primary reasons for this unequaled safety 
record is the fact that the professional operators of transit vehicles 
are highly trained to drive defensively and anticipate potential safety 
problems.
    Even in the face of the tragic events of September 11, public 
transportation systems in New York and Washington, DC responded 
quickly, reliably, and efficiently in evacuating people away from the 
affected areas and delivering them safely to their homes, churches, and 
other chosen destinations. We at the ATU could not be more proud of our 
members in these cities who stayed calm in the midst of this national 
tragedy and bravely performed the same important public service that 
they provide on a daily basis.
    In addition to the commitment to employee and passenger safety 
demonstrated by New York City Transit and the Washington Metro Area 
Transportation Authority, Federal laws and regulations requiring rail 
fixed guideway systems to have in place emergency management plans, 
were, in part, responsible for the successful way in which these 
transit agencies were able to handle the September 11 crisis.
    But this does not mean that we are prepared to face what may come 
next. If the tragic events that unfolded before our eyes 23 days ago 
taught us anything, it is that we cannot rely on traditional notions of 
safety and security to protect us from those who are determined to 
terrorize America.
    There must be a thorough reassessment of the threat posed to 
transportation facilities--mass transit in particular. We can no longer 
rely on these outdated studies from 1997 and 1998 \1\ to tell us what 
needs to be done to make America's transit systems safe and secure. We 
urge this Committee and Congress to mandate such a study--either 
through the passage of H.R. 525, which I discussed earlier, or through 
new legislation specifically addressing the needs of mass transit.
---------------------------------------------------------------------------
    \1\ Synthesis of Transit Practice 27--Emergency Preparedness for 
Transit Terrorism, Transportation Research Board (1997); Worldwide 
Terrorist and Violent Criminal Attacks Against Transportation--1998, 
U.S. Department of Transportation, Office of Intelligence and Security; 
Transit Security Handbook, Volpe National Transportation Systems Center 
(1998).
---------------------------------------------------------------------------
    With that said, there are several specific legislative and 
regulatory fixes that must be taken now to better ensure the safety of 
our transit systems. This is not a time for Best Practices or Model 
Safety Plans! There must be defined legislative and regulatory 
requirements with respect to the equipment, technology, training, and 
personnel needed to prepare, prevent, and respond to any future attacks 
or threats. Attachment three is a summary of the current Federal laws 
and regulations relating to transit security. We recommend that these 
laws and regulations be improved in the following six ways:
    First, and foremost, the safety and security requirements which 
apply to rail fixed guideway systems should be extended to cover bus 
transit systems. There is currently no Federal requirement that bus 
transit systems prepare or implement security plans to protect and 
prepare bus operators and passengers in emergency situations. This is 
absurd given that 23 percent of violent acts against all modes of 
transportation occur on transit buses--almost 5,000 incidents alone in 
1999, according to the FTA statistics.
    Earlier this year, the ATU recommended just that action to the FTA, 
who, along with the transit industry and without any request for input 
by the affected labor community, is in the process of developing a 
Model Transit Bus Safety Program. Attachment four is a copy of our 
recommendations to the Agency. As the ATU pointed out, the Draft Report 
most recently released by the Agency on April 20, 2001, is seriously 
lacking much needed security measures. In fact, the proposal put forth 
by the agency includes security measures only as a voluntary element of 
any transit bus safety plan.
    While, the ATU acknowledges that transit bus systems vary greatly 
in services offered, size and resources, and thereby face different 
security threats, it is our contention that some basic security 
measures must be taken by all transit providers to ensure the safety 
and well being of both the operators of the vehicles, as well as the 
passengers.
    All transit operators should be trained on how to handle potential 
incidents, including instructions on how to defuse situations involving 
angry or belligerent riders and how to identify and minimize 
potentially dangerous situations. Drivers should be given detailed 
protocols to be followed when a violent situation erupts, such as who 
to call first for backup, when to stop the bus, when to refuse service 
to a passenger, when other passengers should be evacuated from the 
vehicle, etc. . . . This training should be required as a basic element 
of any safety and security program.
    In addition, all systems should, at a minimum, have a formal 
agreement with local law enforcement concerning coordination with 
transit personnel when security breaches occur. These agreements may be 
as basic or complex as necessitated by the individual transit bus 
system, considering whether the system has its own police force or 
security personnel.
    Other security measures, including technological and design 
strategies such as lighting, cameras, panic buttons, alarms, and 
automated ticketing, should be incorporated as appropriate in every new 
or enhanced safety and security program. In implementing such 
strategies transit service providers should be required to consult with 
representatives of their employees to insure that the specific security 
concerns of both passengers and workers are identified and addressed.
    Second, Federal law should be amended to require all transit 
systems in urban areas to spend a minimum percentage of their formula 
grant monies on security measures, without exception. While Federal law 
currently requires that at least 1 percent of such grants be spent on 
security measures, it allows an exception where the grant recipient 
``has decided that the expenditure for security projects is not 
necessary.'' At a minimum, this decision should be left up to the 
Secretary of Transportation, not the individual transit agencies.
    Third, Congress must appropriate sufficient funds to allow transit 
agencies to adopt and implement needed security improvements. Clearly, 
the above requirements mean nothing without the funds necessary to 
carry out the mandates. Resources must be made available for equipment 
needs, including the development of devices to detect the presence of 
chemical or biological weapons, as well as personnel and training 
needs. Specifically, we call upon Congress to increase funding to the 
FTA-sponsored National Transit Institute for expanded transit employee 
safety and security training. In addition, Congress should consider a 
supplemental appropriation to address the immediate needs of our urban 
systems to quickly upgrade their security systems. We are prepared to 
work with this Committee, Congress, DOT, and industry representatives 
to identify the level of emergency funding needed to satisfy these 
goals.
    Fourth, the FTA should develop a National Transit Terrorism Threat 
Warning System, similar to the system developed by the Federal Aviation 
Administration to warn all operating systems that an attack may be 
imminent. The FAA system was critical in responding to the September 11 
hijackings, allowing the Agency to immediately ground all flights and 
possibly averting further tragedy. Such a system operating in 
coordination with the appropriate Federal, State, and local law 
enforcement agencies would ensure the issuance of timely and accurate 
information required to put potentially targeted systems on high alert.
    Fifth, Congress should Federalize penalties for violent assaults on 
transit operators. Despite the important public service they provide 
and the accompanying risks they face on the job everyday, transit 
operators receive very little protection under Federal and State laws. 
While a person who assaults an airline pilot or a flight attendant is 
subject to Federal penalties, the same deterrent is not applied to 
those who attack the bus and rail operators who transport us daily to 
work, home, shopping, medical facilities, and other destinations. 
Likewise, most State laws treat such attacks only as simple misdemeanor 
assaults.
    And finally, the FTA must further improve its transit crime 
reporting systems so that the true extent of the threat can be 
assessed. While transit agencies are required to report crime 
statistics along with other information required by the FTA, many 
transit agencies, even those with police divisions, do not appear to 
have the capacity to produce reliable crime counts. This is primarily 
due to the absence of interagency exchange mechanisms to supply reports 
of transit crimes, which transit agencies simply never receive.
    The ATU is committed to working with this Committee, Congress, the 
Administration, and the transit industry to see that these and other 
necessary steps are taken to improve the safety and security of this 
Nation's transit systems, personnel, and passengers. While we certainly 
hope that none of these plans or warning systems that we have 
recommended here today are ever tested, we must nonetheless take all 
necessary actions now to enable our transportation system to prevent, 
prepare, and respond in the event that we are faced with another 
terrorist or quasi-terrorist attack.
    Thank you again for inviting the ATU to participate on this panel 
here today. We cannot stress enough how important it is to include the 
input of the labor community in this discussion. It is our members who 
are on the front lines of this battle and it is our members who know 
best what dangers they face everyday on the job. We look forward to 
working with all of you in the months and years to come to address the 
important issues raised here today.
    We would be pleased to answer any questions you may have.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                 PREPARED STATEMENT OF RICHARD A. WHITE
    General Manager, Washington Metropolitan Area Transit Authority
                            October 4, 2001

    Chairman Reed and Members of the Subcommittee, good afternoon, and 
thank you for asking me to testify on the important subject of Transit 
Safety in the Wake of September 11. I am Richard White, and I am proud 
to serve as General Manager of the Washington Metropolitan Area Transit 
Authority (WMATA) here in the National Capital Region.
    The events of September 11 have affected all aspects of national 
life. Daily and routine events like business trips, vacation travel, 
and commuting have been changed forever. Although WMATA handled its 
mission well on that tragic day, we now face altered expectations, 
especially from our Federal customer base. Safety and security are of 
concern for each of the 1.1 million daily trips on the system, and it 
is our obligation to continue to ensure that Metrorail and Metrobus 
operations provide our customers safe passage, so the important work of 
the National Capital Region can continue.
    Before responding to your questions regarding safety, I would like 
to acknowledge the extraordinary efforts of our New York and New Jersey 
colleagues. They were heroes in their communities. Earlier this week I 
attended the annual meeting of the American Public Transportation 
Association (APTA) and heard firsthand some of the courageous and brave 
acts performed by transit employees, acts which saved thousands of 
lives that otherwise would have been lost in the subway tunnels that 
ran underneath the World Trade Center complex. In those and other 
systems across the Nation, America's transit customers were safeguarded 
on that sad day. And, Mr. Chairman and Members of the Committee, I 
believe that WMATA and transit systems across the country will play an 
even greater role in our national defense and national security in the 
months and years ahead.
    On September 11, when WMATA was needed most, and amid regional 
chaos, Metrorail and Metrobus were ready, and delivered for the 
National Capital Region. We operated the equivalent of back-to-back 
rush hours virtually without incident, after the Federal Government and 
other regional employers sent hundreds of thousands of workers home 
around mid-morning. We were operating the entire day. We did what we do 
best. We moved large numbers of people safely and efficiently.
    Throughout the day, the WMATA workforce performed extraordinarily. 
Not once did an employee put their own individual concerns ahead of 
their sense of duty to the customers. The transit police, the bus and 
rail operators, the station personnel, the customer service 
representatives--everyone--demonstrated their dedication to our mission 
of moving people safely and securely.
    Further, we never lost communications throughout the day. We 
established and maintained contact with local, State, and Federal 
authorities, and we communicated with our riders through in-system 
messages, our phone system and over the Internet through the website.
    WMATA, blessedly, suffered no property damage, no loss of life, and 
no injury to any of its employees nor to any of our customers on that 
terrible day.
    I would be happy to provide the specific details of our actions 
that day, but now I would like to address the safety questions raised 
in your invitation letter.
    The most significant issue facing WMATA is adapting to the post-
September 11 reality that our freedom of mobility has been challenged. 
Security is paramount in the minds of our riders. WMATA is considered 
one of the safest transit systems in the country, but we are always 
reviewing ways to meet the obligation of providing greater security for 
the riders of the region's public transportation. Currently, WMATA does 
annual counter-terrorism training for police and operations personnel, 
does explosive device training, provides bomb containment trash cans, 
participates in numerous interagency disaster-related drills, has 1,400 
cameras monitoring the rail system and participates in the testing of 
emergency technology. WMATA is partnering with the scientific community 
and the Federal Government in an ongoing program for chemical and 
biological protection. For security reasons I cannot discuss the 
details of this program, but chemical sensors have been installed and 
are being tested in the system as part of the effort to protect 
customers, first-line emergency responders and employees. The intent is 
to share the results of the program with the transit industry in this 
country and around the world.
    In addition, the WMATA has identified a number of enhancements to 
current security. These enhancements, at a projected cost of 
approximately $20 million, will allow the recording of security-related 
incidents, will enhance the intrusion-monitoring capability in 
Metrorail, will add technology at rail yards and bus garages and will 
limit access to secure facilities to authorized persons only. We are 
currently completing a comprehensive review of procedures, facilities, 
and security enhancements, such as cameras on buses, global positioning 
systems for buses, and sensor systems, in an effort to identify all 
other potential security needs and their associated costs. Completing 
this review and implementing additional security enhancements should go 
a long way toward assuring our riders that public transit continues to 
be safe in the post-September 11 world.
    Since September 11 we have taken a number of actions to demonstrate 
to riders that we are prepared and are providing security. Our Metro 
Transit Police have assumed a higher level of recognition within the 
system, along with operations personnel wearing orange vests. The Metro 
Transit Police are providing the highest possible level of presence 
through the use of overtime. On Thursday, September 20, a ``Dear Fellow 
Rider'' letter was distributed to customers to engage them in our 
security efforts and to ask them to help to be our eyes and ears. We 
are reemphasizing security vigilance to all personnel and completing 
instruction as needed. We are conducting an updated risk assessment of 
facilities, and we have introduced new security measures in our 
headquarters building. Finally, we are actively engaged in a dialogue 
with others around the country and the world seeking best practices. 
Our objective is to be prepared and to reassure riders in the region 
that their freedom of mobility has not been compromised.
    What we learned on that day was that it is critical that there are 
reliable and redundant communication systems and that there is an open 
exchange of information with other local and Federal agencies. There 
needs to be a regional evacuation plan developed in cooperation with 
local, State, and Federal agencies. Such a plan is now in development 
on an expedited basis in the National Capital Region.
    Further, there needs to be regular and ongoing communication with 
riders. For example, we learned the value of our website, which had 
double the usual number of hits that day--over 23,000. Also, our 
telephone call center handled over 13,000 calls, almost twice the daily 
volume.
    To improve safety, I believe all transit properties should do the 
following:

<bullet> Make sure they have good emergency plans. The Federal Transit 
    Administration (FTA) requires two plans--a system safety plan and a 
    system security plan. Every agency needs to have them and they need 
    to be thorough.
<bullet> Make sure they have a high level of employee training and 
    awareness. And, then, drill, drill, drill.
<bullet> Make sure they have a high level of interagency coordination 
    with the appropriate police, fire, and emergency rescue personnel. 
    Know your partners, and have roles and responsibilities well 
    defined and understood before an incident takes place.
<bullet> Make sure communication systems--both internal and external--
    are adequate and in good working order.

    To improve transit safety, I believe the Federal Government should 
consider the following:

<bullet> Having the FTA conduct a security readiness assessment of all 
    transit systems.
<bullet> Having the FTA provide technical assistance to systems in 
    preparing good safety and security plans and in conducting training 
    and drills.
<bullet> Having the FTA be a facilitator of information through the 
    exchange of national and international best practices and through 
    linkage with the Department of Transportation's Intelligence and 
    Security Office and the new Office of Homeland Security.
<bullet> Exploring and making the best use of technology.
<bullet> Ensuring that various Federal agencies with regulatory 
    responsibility coordinate their activities with the transit 
    industry.
<bullet> Coordinating intelligence sharing.
<bullet> Supporting necessary long- and short-term investments in order 
    to provide enhanced security and expanded system capacity.

    There was much talk of transit's ability to shape the nature of the 
first major transportation bill of the 21st Century, at the APTA annual 
conference this week. In closing, I would like to propose that now is 
the time for the Nation to consider certain transit properties as part 
of the national defense system, and to contemplate their value and 
needs as the evacuation method of choice, and possibly necessity, 
during specific emergency situations. Every mode of transportation is 
important during emergencies, but transit has experienced the highest 
growth rate of any of the transportation modes over the past 5 years. 
It is able to move people much more quickly and efficiently than 
congested roads and highways can. The Nation needs to view our transit 
systems in this national defense context in order to properly recognize 
the new reality.
    Thank you for holding a hearing on this important subject. I look 
forward to answering your questions.

RESPONSE TO WRITTEN QUESTIONS OF SENATOR SARBANES FROM JENNIFER 
                            L. DORN

    Federal law requires that transit grant recipients spend at 
least 1 percent of their formula money on transit security 
projects, such as ``increased lighting . . .increased camera 
surveillance . . .[or] an emergency telephone line to contact 
law enforcement or security personnel.'' (49 U.S.C. 
5307(d)(1)(J)). The law also gives the grant recipient the 
option to certify to FTA that the required security expenditure 
is unnecessary.

Q.1. What steps does the FTA take to ensure that transit 
agencies are making adequate investments in system security? 
How many systems have certified that this expenditure is 
unnecessary? Does the FTA review transit agencies' security 
plans before accepting the certification?

A.1. Every grantee receiving formula funds under 49 U.S.C. 5307 
is required to certify that 1 percent of those funds is spent 
for security or that such expenditures are unnecessary. 
Although the FTA tracking system currently does not distinguish 
between transit systems that certify that the funds are 
unnecessary and those that expend the 1 percent, it is being 
modified to do so in the near future.
    FTA verifies that a grantee is in compliance with its 
annual certifications as part of the triennial review process 
by examining each transit agency's security expenditures. Of 
the approximately 150 triennial reviews conducted in fiscal 
year 2001, FTA determined that three transit systems were not 
in compliance with their certification and were required to 
take immediate corrective action.
    Section 5330 of Title 49, U.S.C., requires, among other 
things, that a State establish a safety program plan for each 
fixed guideway mass transportation system in the State. 
Pursuant to FTA's implementing regulation, each rail transit 
system must develop and implement a System Security Program 
Plan that is reviewed and approved by a State safety oversight 
agency. The State oversight agency submits an Annual 
Certification and Report to FTA in which it certifies the 
security oversight activities it performed during the year. 
Grantees receiving Section 5307 formula funds that do not have 
fixed guideway mass transportation are not statutorily required 
to develop a security plan.

Q.2. TEA-21 also allows FTA to make grants to transit agencies 
for the purpose of crime prevention and security (49 U.S.C. 
5321). How many grants have been made pursuant to this section, 
and for what purposes? Under what criteria does FTA review 
these grant applications?

A.2. Pursuant to 49 U.S.C. 5321, funds for capital grants from 
amounts made available under 49 U.S.C. 5338 may be used for 
crime prevention and security. Thus, Section 5321 does not 
create a separate program, but makes crime prevention and 
security an eligible expense for FTA capital assistance. It is 
rarely possible to describe a project as serving crime 
prevention/security purposes exclusively. For example, 
automatic vehicle locating (AVL) systems are typically 
installed to improve transit operation efficiency, but have the 
added benefit of improving transit security. Similarly, radio 
systems permit the exchange of information in the event of 
equipment malfunction or other operational problems, and also 
permit the reporting of emergencies and security incidents. 
Consequently, programs for improving or upgrading security are 
normally incorporated in a grantee's application for funds, 
which must meet the applicable eligibility criteria under the 
FTA's capital assistance programs.

RESPONSE TO WRITTEN QUESTIONS OF SENATOR CORZINE FROM JENNIFER 
                            L. DORN

Q.1. The Administration is establishing an Office of Homeland 
Security, What role will this office play in guaranteeing the 
safety of our mass transit system?

A.1. The Office of Homeland Security will coordinate the 
Executive Branch's efforts to detect, prepare for, prevent, 
protect against, and recover from acts of global or domestic 
terrorism within the United States. The Federal Transit 
Administration (FTA), through the Department of Transportation 
(DOT), will assist the Office of Homeland Security in 
developing and implementing homeland security activities and 
policies that will help to ensure the safety of the Nation's 
mass transit systems.

Q.2. What steps are the Federal Transit Administration and the 
Department of Transportation taking to ensure bus safety? Do 
you consider these measures adequate and, if not, what more do 
you think needs to be done?

A.2. Over the past several months, FTA has been developing a 
Model Transit Bus Safety Program in close coordination with the 
transit bus industry, including the Amalgamated Transit Union 
(ATU), Community Transportation Association of America (CTAA), 
American Public Transportation Association (APTA), and American 
Association of State Highway and Transportation Officials 
(AASHTO). The Program attempts to create a uniform and 
consistent transit bus safety program for the transit industry 
by offering core safety elements that every transit bus 
provider should have as part of a minimum safety program. FTA, 
ATU, CTAA, APTA, and AASHTO are in agreement these core 
elements include:

<bullet> Security
<bullet> Employee Selection and Training
<bullet> Vehicle Maintenance
<bullet> Drug and Alcohol Abuse Programs
<bullet> Safety Data Acquisition and Analysis

    The Model Transit Bus Safety Program will discuss what 
measures should be undertaken by transit agencies in each of 
these core areas. Prior to the events of September 11, 2001, 
measures included elements that help prevent crimes against 
transit personnel and property. Now, the program also includes 
elements that help thwart sabotage and terrorist attacks 
against transit agencies, their employees, and the riding 
public. FTA will develop guidance documents that will discuss 
how each measure, including security measures, should be 
implemented by transit agencies. These guidance documents will 
be developed with the collective assistance of transit labor 
unions and transit industry representatives. In view of the 
events of September 11, development of the security guidance 
document will be expedited.
    The FTA has received a commitment from the transit industry 
to promote and monitor the Model Transit Bus Safety Program. 
Accordingly, FTA believes there is adequate support from the 
transit industry to implement the model program without 
additional regulation. FTA will monitor implementation of the 
program and, in particular, progress made in the area of 
transit security.

Q.3. New Jersey Transit is facing additional ongoing costs 
related to the tragedy on September 11 at the World Trade 
Center. For example, New Jersey Transit has initiated a ferry 
service from Liberty State Park to lower Manhattan for its bus 
riders who can no longer travel through the Holland Tunnel. 
There is no additional fee to riders for this service, but 
there is a substantial cost to New Jersey Transit. In addition, 
New Jersey Transit is honoring Port Authority Trans-Hudson 
(PATH) fare passes on its Hudson Bergen Light Rail; again, 
without any cost to the rider but at a cost to New Jersey 
Transit.
    What efforts are the Administration considering to 
reimburse these and other ongoing costs that New Jersey has 
incurred as a result of the tragedy on September 11? Would the 
Administration consider declaring New Jersey a disaster area, 
like New York, in order for it to be eligible for reimbursement 
for these costs?

A.3. The Administration has proposed that $4.9 billion of the 
$40 billion Congress recently made available in the 2001 
Emergency Supplemental Appropriations Act be appropriated to 
the Federal Emergency Management Agency (FEMA) Disaster Relief 
Fund to support relief efforts in New Jersey, New York, and 
Virginia in response to the September 11 terrorist attacks. If 
appropriated, the funds will be used to rebuild damaged transit 
facilities and other critical public infrastructure, remove 
debris from the World Trade site, and help individual victims. 
The FTA has been informed that FEMA has authority under its 
Public Assistance Program to fund the capital and operating 
expenses incurred by State, local governments, and certain 
private nonprofit organizations associated with the provision 
of emergency transportation required as a result of a 
Presidentially declared disaster or emergency, FEMA has 
informed FTA that increased expenses incurred by a New Jersey 
public ferry operator or its contractor due to emergency 
transportation needs directly related to the September 11 
disaster would be eligible under that program. The FTA strongly 
supports the Administration's position that funds be made 
available for relief efforts in response to September 11. We 
will continue to work with FEMA to identify funds that should 
be allocated to mass transit needs, including the provision of 
emergency transportation.

Q.4. Does the Administration support efforts to provide Amtrak 
with almost $1 billion for tunnel and life safety upgrades, as 
proposed by Senator Biden and by several other Senators? Does 
the Administration consider the condition of these tunnels--
which lie along the Northeast corridor in New York, Washington, 
and Baltimore--to be a matter of transit safety, given the fact 
that the tunnels are shared by other transit systems?

A.4. Amtrak, an intercity railroad, owns the tunnels that lie 
along the Northeast corridor in New York, Baltimore, and 
Washington. The Federal Railroad Administration has regulatory 
responsibility for ensuring the safety of these tunnels. The 
Railroad Advancement and Infrastructure Law for the 21st 
Century, S. 1530, was introduced on October 11, 2001, by 
Senators Hollings, Biden, Breaux, Cleland, Schumer, Kerry, 
Rockefeller, Carper, Jeffords, and Durbin. The bill, among 
other things, authorizes funding for Amtrak safety, security, 
and infrastructure needs and includes $998 million for tunnel 
improvements on the Northeast corridor. On October 15, the Rail 
Security Act of 2001, S. 1550, was introduced by Senator 
Hollings. This bill contains the identical provisions for 
tunnel improvements as S. 1530. The Administration supports the 
concept of strengthening and improving the safety of America's 
rail system, such as recognizing that funds would only become 
available if provided through the appropriations process. The 
Administration opposes the inclusion of nonsecurity/life 
safety-related infrastructure projects, or amendments that 
would repeal the regimen of fiscal discipline imposed by the 
current statutory requirements for Amtrak self-sufficiency, 
barring the establishment of an alternative that imposes 
similar discipline. Given Amtrak's severe financial 
difficulties, the establishment of such an alternative would be 
more appropriately fashioned through dialogue between the 
Administration and Congress in the context of an early 
reauthorization of intercity passenger rail programs.

Q.5. One concern in New Jersey is the need for additional rail 
cars and buses to deal with the crush of extra capacity as a 
result of the tragedy on September 11. Do you support providing 
additional funding to transit systems like New Jersey's that 
are experiencing these severe capacity problems so that they 
may buy the additional rail cars and buses they need?

A.5. As indicated in response to question 3 above, FEMA has 
authority under its Public Assistance Program to fund the 
capital and operating expenses incurred by State, local 
governments, and certain private nonprofit organizations 
associated with the provision of emergency transportation 
required as a result of a Presidentially declared disaster or 
emergency. It is FTA's understanding that the costs of 
additional rail cars and buses to address emergency 
transportation needs directly related to the September 11 
disaster would be eligible under FEMA's Public Assistance 
Program. The FTA will work with FEMA and New Jersey Transit 
officials should New Jersey Transit apply to FEMA for such 
funding.

         RESPONSE TO WRITTEN QUESTION OF SENATOR REED 
                     FROM WILLIAM W. MILLAR

Q.1 Generally, what on average does a transit system spend on 
security? And also, if you could help give us your perspective 
as to what might be an adequate level.

A.1. It is important to note that the Federal transit law (49 
USC 5307(d)(1)(J)(i)) provides that at least 1 percent of the 
amount that an FTA grantee receives each fiscal year under the 
formula program must be allocated to security projects. In the 
event that the FTA grantee determines that such expenditure is 
not necessary, a request for exemption must be submitted to the 
Secretary of Transportation.
    Beyond this Federal requirement, transit agencies provide 
for system security and policing in various ways. Some transit 
agencies maintain dedicated transit police forces, some 
contract for policing services with local police jurisdictions 
and some contract for security services through private 
companies or maintain a mix of dedicated and contracted 
services. Smaller transit systems will typically establish a 
working demand-response community relationship with their local 
police jurisdictions.
    In terms of quantifying capital funding expenditures for 
transit security, there is no comprehensive source of 
information that provides that information. Such expenditures 
and projects often are part of broader activities that can have 
a direct impact on security but are not considered ``security'' 
projects. An example would be the upgrading of radio 
communications. It should also be noted that transit agencies 
engage in security-related infrastructure funding campaigns 
that can vary widely from year to year depending upon the 
stages of infrastructure life-cycles and prior existence of 
security features.
    In short, a definitive response to the question of security 
funding requirements for transit systems is difficult to 
determine as individual agency needs vary widely according to 
system configuration, service interface and complexity, 
demographics, system age, and regional disparities in funding 
availability.
    Specifically in response to your question, however, APTA 
recently conducted a quick general survey of its members that 
included questions on security initiatives and funding levels. 
From this survey it appears that operating budgets for security 
and policing range between 2 percent to 5 percent of transit 
agency total operating budgets, but note the qualifying points 
we state above.
    With respect to what might be an adequate level of funding 
for transit security funding needs that have arisen due to 
terrorist activities, enclosed is a general list of recommended 
requirements with estimated funding needs we recently compiled.

        RESPONSE TO WRITTEN QUESTION OF SENATOR ALLARD 
                     FROM WILLIAM W. MILLAR

Q.1. Mr. Millar, in your testimony, you talked about providing 
some audit services to your membership. We heard from the 
previous panel that they also provide audit services. Do we 
have a duplication of effort here?

A.1. The previous panel noted that security-related audit 
services are available through the FTA upon the request of 
transit agencies. It is our understanding that the one-time 
audit services provided by the FTA relate specifically to 
security.
    In contrast, the audit services provided by APTA are one 
component of our comprehensive APTA Rail, Commuter Rail, and 
Bus Operations Safety Management Programs. The APTA audits are 
conducted once every 3 years and address overall safety 
programs, policies, and procedures as they relate to prescribed 
elements of a transit System Safety Program Plan. Security and 
emergency preparedness are two of twenty-four elements 
prescribed in such plans. In our view, there is no duplication 
of effort between the audits of FTA and APTA. Indeed, the 
respective audits are complementary and provide transit 
agencies with an enhanced level of assessment of their security 
initiatives.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
